<html>
<title> - EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN FLINT, MICHIGAN, PART III</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                       FLINT, MICHIGAN, PART III

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2016

                               __________

                           Serial No. 114-142

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                                ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-714 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
         William McGrath, Interior Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2016...................................     1

                               WITNESSES

The Hon. Rick Snyder, Governor, State of Michigan
    Oral Statement...............................................     5
    Written Statement............................................     8
The Hon. Gina McCarthy, Administrator, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    11
    Written Statement............................................    14

                                APPENDIX

1. Representative Dan Kildee Statement (D-MI)....................    80
2. Genessee County Legionella 2014-2015 Chart submitted by Mr. 
  Walberg........................................................    82
3. 2015-01-18 Mayor Walling to Governor Snyder re Flint submitted 
  by Mr. Cartwright..............................................    83
4 .2015-06-24 Miguel A. Del Toral EPA Report submitted by Mr. 
  Mica...........................................................    85
5. 2015-09-09 Representative Kildee to Administrator McCarthy-EPA 
  and Director Wyant-MDEQ re Flint submitted by Mr. Hice.........    93
6. 2015-09-15 Hedman-EPA to Representative Kildee-Flint re 9-9 
  submitted by Mr. Hice..........................................    95
7. RESPONSE from Governor Snyder MI to Questions for the Record..    96
8. RESPONSE from Administrator McCarthy EPA to Question for the 
  Record.........................................................   100


  EXAMINING FEDERAL ADMINISTRATION OF THE SAFE DRINKING WATER ACT IN 
                       FLINT, MICHIGAN, PART III

                              ----------                              


                        Thursday, March 17, 2016

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Walberg, 
Amash, Gosar, Desjarlais, Massie, Meadows, DeSantis, Buck, 
Walker, Hice, Grothman, Palmer, Cummings, Maloney, Norton, 
Clay, Connolly, Cartwright, Duckworth, Kelly, Lawrence, Watson 
Coleman, DeSaulnier, Boyle, Welch, and Lujan Grisham.
    Also Present: Representative Conyers.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We have the third in a series of hearings that we are doing 
examining the Federal administration of the Safe Drinking Water 
Act, dealing with the crisis in Flint, Michigan.
    Appreciate the witnesses here today. I also appreciate the 
strong public participation and interest in this hearing. I 
would remind those that are participating that this is a 
congressional hearing. We would appreciate your proper--the 
proper decorum in this room. There are to be no shows of 
expression, positive or negative, and we would appreciate your 
help in that way.
    Let me make just a few observations, and then we will turn 
it over to the ranking member and get right to the questioning 
here.
    There are people still today in Flint, Michigan, who are 
waking up this morning, they can't drink the water. And they 
can't take a shower. They are using a bottle of water to drink 
and using a bottle of water to take a shower. And I can't even 
imagine my family having to go through that here in the United 
States of America.
    I was able to visit Flint with a number of members here on 
this past Saturday, and this is a crisis, and it affects a lot 
of people. And I think these hearings have been very 
productive.
    There are people that have been exposed to drinking lead-
laced water for more than a year, and this is, I believe, a 
failure at every level. And I think most everybody has 
acknowledged that.
    Let us remember that Flint City was a city in crisis. 
Financial situation was dire at best. The people of Michigan 
made a decision, and emergency managers were put into place, 
save dollars. And I think the idea, desire to reduce the rate 
of the cost of water, as well as improve the quality of water, 
was where this started, but it is not where it ended up.
    At every level in Michigan, from the city to the Department 
of Public Works, to the emergency manager, to the Michigan 
Department of Environmental Quality, there were failures. And 
there are questions about the accuracy of the data that was 
provided.
    Some of those people were responsible and reported to the 
Governor of Michigan, and I appreciate the Governor 
volunteering and suggesting that coming here and testifying 
before Congress to tell his version of the story was an 
appropriate thing. And Governor, I appreciate your willingness 
to come talk to this body because there are some serious 
questions, and we do want to get to the bottom of it.
    The Congress also has responsibility and jurisdiction over 
the EPA. The funding of the EPA, obviously, being a Federal 
organization, we have jurisdiction, and it is proper and 
important that we look at things from that perspective as well.
    In February, LeeAnne Walters, who is here in the audience 
with us today, finally got fed up with what was going on, where 
she managed to get a hold of the EPA, and Miguel Del Toral from 
the EPA showed up on the scene and started to test the water. 
He should be highly commended for his actions and the things 
that he did, and I appreciate LeeAnne Walters and her family 
for stepping forward and can't even express--I just can't even 
imagine what her and her family and her son, who I met, got a 
picture with, what they have been through.
    By June, the EPA clearly knew that this was a crisis. They 
absolutely knew that this was a problem. And Susan Hedman is 
the administrator for the Region 5. She definitively knew that 
there was a problem.
    The Mayor at the time in Flint asked what had happened. Is 
the water safe to drink? He was told don't pay no attention to 
the report that was written by the EPA and actually went on 
local television and told people it was safe to drink the 
water.
    Move forward, it is September 24th. One of the more 
troubling things--I want to put up this graphic. This is an 
internal email within the EPA talking about Susan Hedman. 
``Perhaps she''--Susan Hedman--``already knows this, but I am 
not so sure Flint is the community we want to go out on a limb 
for.''
    You can take that down. It is one of the more offensive, 
concerning things I have seen. That there were people, more 
than one, that were making decisions and thinking that, well, 
maybe Flint isn't who we should go out on a limb for. Are you 
kidding me?
    Of all the communities out there, Flint is the number-one 
place that they should have been going out on a limb for. It is 
depressed economically. They are going through their own 
economic crisis, and there is internal discussion at the EPA 
deciding whether or not we should go out on a limb for.
    Days later, the EPA Administrator said Ms. Hedman's work 
was ``very encouraging.'' Gina McCarthy said, ``They are making 
great progress.'' But it wasn't until January of 2016 that the 
EPA actually took definitive action. The day after that, Susan 
Hedman, the Region 5 administrator, resigns.
    Later asked about that action, Gina McCarthy, the EPA 
Administrator, said that that resignation was courageous, 
courageous. That is something we are going to talk about here 
today.
    I have seen a lot of things before this committee, but I 
have got to tell you, this--the lack of action here, the lack 
of letting people know so they can make an informed decision, 
is very concerning. It is very concerning.
    Let us now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And I, too, agree that this is a tragic situation. But let 
us be clear, this is not just on the EPA. It is much bigger 
than that. And so I take a moment, first of all, to thank 
LeeAnne Walters, Professor Edwards, and to the people of Flint, 
many of whom have come here today. They are lined all outside 
these walls, unable to get in and probably feeling left out.
    But they probably felt left out for a long time. And so, 
Mr. Chairman, I take this moment to thank you. You didn't have 
to do this. I asked you for a hearing, and you granted us three 
hearings, and I really appreciate that.
    You see, because I lived in a neighborhood where lead is a 
problem, I am very sensitive to this issue.
    Governor Snyder has been described as running the State of 
Michigan like a business. Well, what if this was a business? 
What if a CEO ran a company that sold toys laced with lead that 
children put in their mouths? What if those children were 
poisoned as a result? And what if that CEO ignored warnings for 
more than a year as those kids got sicker and sicker and 
sicker?
    There is no doubt in my mind that if a corporate CEO did 
what Governor Snyder's administration has done, he would be 
hauled up on criminal charges. The board of directors would 
throw him out, and the shareholders would revolt.
    This is similar to what is happening now to Governor 
Snyder. The special counsel for the State attorney general's 
office has launched an investigation, and he says--I didn't say 
this--he says that State officials could face charges including 
breach of duty, gross negligence, or even manslaughter, charges 
he says are, and I quote, ``not far-fetched.''
    On our committee, we have obtained documents showing that 
people all around the Governor, including his chief of staff, 
were sounding the alarms, but he either ignored them or didn't 
hear them. So we are talking about quotes. Let us talk about 
them.
    In October 2014, the Governor's top legal adviser had 
warned that Flint should, and I quote, ``get back on the 
Detroit system as a stopgap as soon as possible before this 
thing is too far out of control.'' That is the chief of staff.
    In March of 2015, the Governor's own chief of staff--no, 
that was his legal adviser. But his chief of staff said in 
March of 2015, ``If we procrastinate any longer in doing 
something direct, we will have real trouble.'' That is from the 
chief of staff.
    And in July, his chief of staff again warned that Flint 
residents, and I quote, ``are concerned, and rightfully so, 
about the lead level studies they are receiving. They are 
basically getting blown off by us.''
    The documents reveal failures at every level, led by 
Governor Snyder's handpicked appointees, and the Governor's 
fingerprints are all over this. His Department of Environmental 
Quality, his Department of Health and Human Services, his inner 
circle of top aides, his press staff, and his chief of staff. 
And of course, the emergency managers the Governor put in 
charge of Flint.
    There will now be an entire generation, an entire 
generation of children who suffer from brain damage, learning 
disabilities, and many other horrible effects of lead poisoning 
that were inflicted on them by Governor Snyder's 
administration. There will be many children, Mr. Chairman, who 
will sit in the second and third grade and will not be able to 
read the words ``See Spot run'' and won't know why. But the 
reason why is because there is lead in their veins.
    Now Republicans are desperately trying to blame everything 
on the EPA. So let me say this. I agree that the EPA should 
have done more. They should have rushed in sooner to rescue the 
people of Michigan from Governor Snyder's vindictive 
administration and its utter incompetence at every level.
    Governor Snyder's administration had primary responsibility 
for enforcement under the Safe Drinking Water Act, not the EPA. 
Governor Snyder's administration chose to switch to the Flint 
River for the source of water, not the EPA. Governor Snyder's 
administration ignored warnings from the Flint water treatment 
plant supervisor not to go forward with the switch, not the 
EPA.
    Governor Snyder's administration falsely told the City of 
Flint that corrosion control was unnecessary, not the EPA. 
Governor Snyder's administration delayed corrosion control for 
months and harmed thousands of additional people in the 
process, not the EPA. Governor Snyder's administration 
overruled the Flint city council's vote to return to clean 
Detroit water, not the EPA, as I close.
    So, yes, I agree the EPA should have snatched control out 
of Governor Snyder's hands even sooner than they did. But 
Governor Snyder's administration caused this horrific disaster 
and poisoned the children of Flint. On the Governor's Web site, 
his motto is, and I quote, ``Reinventing Michigan: Getting it 
right. Getting it done.''
    It is hard to imagine a more misleading slogan. It also 
says this, and I quote, ``We will learn from this experience.''
    And so, as I said earlier in the other hearing, these 
children, when we are dead--when we are dead and gone, these 
children will suffer for what we failed to do. And so, Mr. 
Chairman, as I have said to you before, we have to be the last 
line of defense. We have to be it. Because generations yet 
unborn will suffer, but we have got to do everything in our 
power to mitigate that.
    I look forward to the hearing, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for 5 legislative days for any 
Members who would like to submit a written statement.
    Chairman Chaffetz. We will now recognize the first and only 
panel. Pleased to welcome the Honorable Rick Snyder, who is the 
Governor of the State of Michigan. We also have the Honorable 
Gina McCarthy, Administrator for the Environmental Protection 
Agency.
    Pursuant to committee rules, if you will both rise and 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Ms. McCarthy. I do.
    Governor Snyder. I do.
    Chairman Chaffetz. Thank you.
    Let the record reflect that both witnesses answered in the 
affirmative. We normally have a 5-minute rule, but you are 
welcome to take the time that you need for your verbal 
comments, and your entire written statement will be made part 
of the record.
    Governor Snyder, you are now recognized.

                       WITNESS STATEMENTS

                 STATEMENT OF HON. RICK SNYDER

    Governor Snyder. Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee, thank you for the 
opportunity to speak with you today about the crisis in Flint 
and the actions we are taking to ensure that nothing like this 
ever happens again.
    Let me be blunt. This was a failure of government at all 
levels. Local, State, and Federal officials, we all failed the 
families of Flint.
    This isn't about politics, nor partisanship. I'm not going 
to point fingers or shift blame. There's plenty of that to 
share, and neither will help the people of Flint.
    Not a day or night goes by that this tragedy doesn't weigh 
on my mind--the questions I should have asked, the answers I 
should have demanded, how I could have prevented this. That's 
why I'm so committed to delivering permanent, long-term 
solutions and clean, safe drinking water that every Michigan 
citizen deserves.
    Today, I'll report what we've done, what we're doing, and 
what we will do to deliver real results and real relief to the 
families of Flint. But before going through the facts, I want 
to express my profound gratitude for the help and heroism of 
Professor Marc Edwards, Dr. Mona Hanna-Attisha, and Flint 
resident LeeAnne Walters.
    They were among the first to sound the alarm about the 
failures of government in the crisis afflicting the Flint 
community. Here are the facts. From the day the City of Flint 
began using the Flint River as an interim water supply on April 
25, 2014, and repeatedly after that, the Department of 
Environmental Quality assured us that Flint's water was safe.
    It wasn't. A water expert at the Federal EPA tried to raise 
the alarm in February 2015, and he was silenced. It was on 
October 1, 2015, that I learned that our State experts were 
wrong. Flint's water had dangerous levels of lead. On that day, 
I took immediately action.
    First, we quickly reconnected to the Detroit water supply 
to begin sealing the damaged pipes. Second, I ordered the 
immediate distribution of water filters and extensive blood 
level testing in schools and homes to identify those at highest 
risk so they could receive healthcare, nutrition, and 
additional support.
    Third, we deployed $67 million to address both short-term 
needs and long-term solutions. Our focus and our priority is on 
both short-term health and long-term safety. This includes 
diagnostic testing, nurse visits, and environmental assessments 
in the home to treat any child with high lead levels.
    This is only the beginning. Right now, we're in the 
appropriations process for an additional $165 million to 
deliver permanent, long-term solutions. I urge Congress to pass 
the bipartisan bill for aiding Flint immediately so we can 
further protect the health and safety of Flint residents and 
families.
    From identifying every pipe that must be replaced to 
providing long-term medical support, we're working with local 
leaders, like Mayor Karen Weaver, and our representatives here 
in Washington to deliver the assistance our citizens deserve.
    We are holding those who failed accountable, and we're 
being open with the public about how these failures came about, 
including releasing my emails and my staff emails relating to 
this water crisis. We are in the process of publicly releasing 
relevant documents from the State agencies involved so the 
people will have an open, honest assessment of what happened 
and what we're doing to fix it.
    We also began a thorough investigation of what went wrong. 
We've uncovered systematic failures at the Michigan Department 
of Environmental Quality. The fact is bureaucrats created a 
culture that valued technical competence over common sense, and 
the result was the lead was leaching into the residents' water.
    That's why I'm committed to a complete and comprehensive 
change in State government that puts public health and safety 
first and why I've called for a thorough investigation of the 
Michigan Department of Health and Human Services by the auditor 
general and inspector general. We're taking responsibility in 
Michigan, and we're taking action. And that's absolutely 
essential here in Washington, too.
    Inefficient, ineffective, and unaccountable bureaucrats at 
the EPA allowed this disaster to continue unnecessarily. I'm 
glad to be sitting next to the Administrator from the EPA 
because all of us must acknowledge our responsibility and be 
held accountable.
    I do want to thank Miguel Del Toral, a water specialist at 
the EPA who spoke up early about the crisis. Tragically, his 
superiors at the EPA told local leaders in Flint to ignore his 
call for action.
    The truth is there are many communities with potentially 
dangerous lead problems, and if the EPA and the DEQ do not 
change and if the dumb and dangerous Federal lead and copper 
rule is not changed, then this tragedy will befall other 
American cities. Professor Edwards has been sounding this alarm 
for years, and I look forward to joining with him to address 
this failure of government.
    I'm grateful to have been elected to serve the people of 
Michigan. I understand their anger. I've been humbled by this 
experience, and I'm going to make Flint and every community in 
Michigan a better place to live. We have a lot to learn, and we 
have a lot to do.
    I close with a simple plea. Partner with me in fixing this, 
not just for the people of Flint, but for the people all over 
the country. Ranking Member Cummings is right. The American 
people--this is America, and this should never have happened. 
The American people deserve rules that make sense and 
professionals to enforce them who know that health and safety 
are urgent matters.
    I can make sure that happens in Michigan. You can make sure 
it happens for every American.
    Thank you, and I look forward to your questions.
    [Prepared statement of Governor Snyder follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Chaffetz. Thank you, Governor.
    I recognize the Administrator of the EPA, Ms. McCarthy. You 
are now recognized.

                STATEMENT OF HON. GINA MCCARTHY

    Ms. McCarthy. Good morning, Mr. Chairman, Ranking Member 
Cummings, distinguished members of the committee. I want to 
thank you for the opportunity to testify about EPA's response 
to the drinking water crisis in Flint, Michigan.
    I want to start by saying that what happened in Flint 
should never have happened and can never be allowed to happen 
again. The crisis that we are seeing is a result of a State-
appointed emergency manager deciding that that city would stop 
purchasing treated water that it had been successfully relying 
on for 50 years and instead switched to an untreated source for 
the simple reason that they wanted to save money.
    The State of Michigan approved that decision without 
requiring corrosion control treatment. Without corrosion 
control, lead leached from the pipes and fittings and fixtures 
in homes and businesses and industries, and it leached into the 
drinking water. These decisions are what resulted in Flint 
residents being exposed to dangerously high levels of lead.
    Now under the Safe Water--the Safe Drinking Water Act, 
Congress gives States the primary responsibility to enforce 
drinking water rules for the Nation's approximately 152,000 
water systems. But EPA has oversight authority. Typically, EPA 
has strong relationships with our States, and we work with them 
under this act.
    But looking back on Flint from day one, the State provided 
our regional office with confusing, incomplete, and absolutely 
incorrect information. Their interactions with us were 
intransigent, misleading, and contentious. And as a result, EPA 
staff had insufficient information to understand the potential 
scope of the lead problem until more than a year after that 
water supply was switched.
    While EPA did not cause the lead problem, in hindsight, we 
should not have been so trusting of the State for so long when 
they provided us with overly simplistic assurances of technical 
compliance rather than substantive responses to our 
increasingly growing concerns.
    Although EPA regional staff repeatedly asked the Michigan 
Department of Environmental Quality to address the lack of 
corrosion control, we missed the opportunity late summer to 
quickly get EPA's concerns on the radar screen. That, I regret.
    Since October, EPA has been providing technical advice to 
the city. Additionally, as part of the Federal response led by 
the Department of Health and Human Services, an EPA response 
team of scientists, water quality experts, community 
involvement coordinators, and support staff have been on the 
ground every day since late July.
    The EPA team has visited hundreds of homes and collected 
thousands of samples to assess the city's water system. And 
we're encouraged by these test results, but our enhanced 
efforts with Flint will not cease until the system is fully 
back on track.
    Now we've also been engaging Flint residents, visiting 
places of worship, schools, libraries, community centers, and 
senior living facilities to hear their concerns and share 
information. I have also taken several concrete steps at the 
agency to address some of the systemic issues raised during the 
crisis.
    I directed a review of MDEQ and its ability to implement 
the Safe Drinking Water Act for the very reasons that the 
Governor has also so clearly articulated. I called on EPA's 
inspector general to investigate EPA's response to the Flint 
crisis. No, we didn't cause it, but could we have acted sooner 
to correct the situation?
    I issued an EPA-wide elevation memo, encouraging staff to 
raise issues of concern to managers and for managers to be 
welcoming of staff concerns and questions. Too much back and 
forth went between EPA and the State when it should have gone 
up so that we could have raised the red flag earlier.
    I also recently sent letters to every Governor and every 
State environmental and health commissioner in the country, 
asking them to join EPA in taking action to strengthen our safe 
drinking water programs, to ensure that they're looking and 
working with their own communities.
    Additionally, we're actively working on revisions to the 
lead and copper rule. The lead and copper rule was revised 
under the prior administration to streamline the monitoring and 
reporting requirements. We know that it needs to be 
strengthened.
    While the contours of this situation are unique, the 
underlying circumstances that allowed it to happen are really 
not. As a country, we have a systemic problem of underinvesting 
in environmental justice communities, and make no mistake about 
it, this is an environmental justice community. Not only are 
these underserved populations more vulnerable to impacts of 
pollution, but they often lack the tools and the resources and 
the voice to do something about it.
    That's what stacks the deck against a city like Flint. 
That's what creates an environment where a crisis like this can 
happen. In many areas across our country, water infrastructure 
is aging, antiquated, and several communities are severely 
underfunded, particularly low-income communities, which may 
have the most difficulty securing funds through rate increases 
or municipal bonds.
    This threatens citizens' access to safe drinking water, and 
we need to start having a serious conversation with Congress 
and others about how we advance the technologies and 
investments necessary to keep delivering clean water to 
American families.
    I'm personally committed to doing everything possible to 
make sure a crisis like this never happens. Going to--having 
been to Flint, having met with the families, having met with 
faith leaders, having looked at where we're distributing 
waters, having worked hard to make sure that communities have 
the information that they need to stay safe, you cannot do 
anything but be personally committed.
    But we know that no one portion of government can do it 
alone. None of us can do it alone. We need the cooperation of 
all of our colleagues at every level of government and every 
branch of government and beyond.
    Thank you. I look forward to answering your questions.
    [Prepared statement of Ms. McCarthy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    And as we start this, I remind Members, we have votes that 
will happen earlier today. I really do need everybody to stick 
to the 5 minutes so that we can get the maximum number of 
people to participate here. Both of these people have pressing 
schedules as well. So if we can adhere to the 5 minutes, I will 
start to gavel you down right then.
    But we will start by recognizing Mr. Walberg for 5 minutes.
    Mr. Walberg. Mr. Chairman, thank you, and I will take that 
certainly to heart. But I do want to thank you for the 
intentional method by which you have carried on these 
investigations and these hearings.
    Mr. Chairman, you didn't have to do it, but you have done 
it well. I am a proud Michigander, and I am proud of my State. 
I am proud of the things that are taking place. This is a 
problem, but I am proud of Michigan.
    And for you to take serious attention to this, I thank you.
    And Governor Snyder, we appreciate you voluntarily coming 
today. We appreciate you voluntarily releasing all your emails 
so they could be part of the record. We appreciate the fact 
that you are willing to answer tough questions that this 
committee will offer today and outline the steps you are taking 
to solve the crisis and help Flint recover. Because we want 
Flint to recover.
    It is a great city. It has great workers. I have driven 
great cars made in Flint, and to now have the opportunity to 
look in the eyes of Flint citizens who have experienced this 
tragedy, a human-made tragedy.
    Governor, let me ask you, when did you first learn of the 
instances of--a question here that was brought up just the 
other day as well, and there is a concern--instances of 
Legionnaire's disease in Flint?
    Governor Snyder. Yes, in terms of Legionnaire's, I didn't 
learn of that until 2016. And as soon as I became aware of it, 
we held a press conference the next day. That was clearly a 
case where the Michigan Department of Health and Human Services 
should have done more to escalate the issue, to get it visible 
to the public and to me.
    Mr. Walberg. I have documents here today that show your 
staff was receiving information about Legionnaire's in March of 
2015. In an email on March 13th of 2015, a senior DEQ staff 
member, Brad Wurfel, emailed another member of your staff, 
Harvey Hollins, stating that there was a, and I quote, 
``significant uptick in cases of Legionnaire's disease in 
Flint.''
    There is also an email to your spokesperson, Sara Wurfel, 
showing that she was aware of the issue. And in another email, 
Brad Wurfel indicated that he wanted to raise the issue with 
your chief of staff, Dennis Muchmore.
    The information was in the highest levels of your executive 
office 10 months before you knew. Did you speak with them about 
it?
    Governor Snyder. No. I don't recall any mention of that to 
me. And I don't recall seeing those emails or being part of any 
of those discussions.
    Mr. Walberg. If that is the case, what can you tell us 
about whether there is a connection between an outbreak of 
Legionnaire's and the Flint River?
    Governor Snyder. Well, obviously, given the change in water 
source, it's a concern, and we're going through the 
investigation at this point, and all parties are cooperating. 
The Federal Government, State government, outside experts are 
all working this issue.
    We actually brought in expertise from Wayne State 
University that I know you're familiar with, Congressman 
Walberg--an outstanding institution--in terms of an additional 
researcher to look at the causation connection.
    I'm happy to share some information with you that will give 
some perspective on the number of cases and what we have 
information on so far. I actually have a chart. I don't know if 
it's available to people, but I'd be happy to share that in 
terms of seeing some of the numbers themselves.
    Mr. Walberg. I would ask the chairman if we could have that 
submitted for the record.
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. We'll get a copy and distribute it to 
Members as soon as we can photocopy it. If staff could come 
down and get that piece of paper, that would be great.
    Mr. Walberg. Okay.
    Governor Snyder. What I would also say is I've also asked 
for an investigation by the inspector general and the auditor 
general of the State of Michigan, which is an independent 
organization, to go look at the Department of Health and Human 
Services with respect to this whole discussion of what was 
disclosed, the processing of this, because this should have 
been handled better.
    Mr. Walberg. Yes. Administrator McCarthy, does the Safe 
Drinking Water Act provide you with the authority to act in a 
situation like Flint?
    Ms. McCarthy. It does when we have the appropriate 
information, sir. Yes.
    Mr. Walberg. Upon receipt--it says, ``Upon receipt of 
information, the EPA Administrator may take any action she 
deems necessary to protect human health.'' On September26, 
2015, you wrote an email to an EPA official that appeared in 
the AP last night, in fact, a report. You said the situation in 
Flint could, and I quote, ``get very big quickly.''
    You didn't act until January 21, 2016. Why?
    Ms. McCarthy. Well, sir, the action that we were 
recommending or would have taken was action that was already 
happening. It was only until January did I realize that the 
State wasn't continuing and the city wasn't moving forward 
quickly enough to address the issue. But that was very late in 
the game, sir.
    Chairman Chaffetz. The gentleman's time has expired. 
Members are advised that the piece of paper the Governor was 
referring to is evidently already in all of the packets. I 
believe it is the last page.
    Thank you.
    I will now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Governor Snyder, I would like to ask you some simple 
questions, and I remind you that you are under oath today.
    First, I think you said this in your testimony, but you do 
admit here today before this committee that you and your 
administration failed the people of Flint?
    Governor Snyder. I've made that clear in terms of my 
``state of the State'' address, where I said ----
    Mr. Cartwright. And your own task force found that your 
Department of Environmental Quality was ``primarily responsible 
for the crisis in Flint.'' Do you also admit that here today?
    Governor Snyder. Yes, and I took actions immediately based 
on their recommendations.
    Mr. Cartwright. Your task force found that your officials 
at MDEQ did not implement corrosion control, which ``led 
directly to the contamination of the Flint water system.'' Do 
you admit that here today?
    Governor Snyder. The lack of corrosion controls led to this 
issue.
    Mr. Cartwright. And you admit that it was your officials at 
MDEQ that did not implement corrosion control, which led to 
that, right?
    Governor Snyder. They did not instruct the City of Flint to 
do corrosion controls.
    Mr. Cartwright. Is that a yes?
    Governor Snyder. Again, they wouldn't be doing the 
corrosion controls. That's a city responsibility. But they 
failed in what I deem would have been common sense to say they 
should have.
    Mr. Cartwright. Governor Snyder, do you admit that you 
personally received a letter on January 18, 2015, from Flint's 
Mayor, begging you to take action and warning, ``There is 
nothing more important in Flint right now than fixing the water 
problems.'' On January 18, 2015, do you admit receiving that 
letter?
    Governor Snyder. I received a letter from the Mayor dated 
that, and I took action on items within that letter.
    Mr. Cartwright. I am asking you about January 18, 2015. 
This is Exhibit D that we have marked for you.
    Governor Snyder. Yes. Could you share the letter with me so 
I could confirm that?
    Mr. Cartwright. Would you hand him the letter, please? It 
is marked as Exhibit D. We will ask that this be made part of 
the record, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cartwright. January 18, 2015, from Dayne Walling, the 
Mayor, last paragraph on the second page, it is directed to you 
specifically, and he says, ``There is nothing more important in 
Flint right now than fixing the water problems.'' Do you see 
that?
    Governor Snyder. I do.
    Mr. Cartwright. Do you admit getting that letter?
    Governor Snyder. Yes.
    Mr. Cartwright. All right. The Mayor asked you repeatedly 
to come to Flint during the crisis. Do you admit today you 
didn't show up for more than 7 months after he asked you?
    Governor Snyder. Actually, I'm not familiar. I'd have to 
check my schedule.
    Mr. Cartwright. Well, that is what he says. You didn't go 
to Flint until October 2015. Is that right?
    Governor Snyder. I don't know if that's correct or not.
    Mr. Cartwright. You don't know. You admit here today to 
seeing headline after headline about health problems, hair 
loss, rashes, ecoli, bacteria, sewage, Legionnaire's disease. 
Did you read any of those stories, Governor Snyder?
    Governor Snyder. Congressman, I read a number of those 
stories. What I would tell you is those stories, we would 
follow up on them and continue to get reaffirmation from career 
bureaucrats that the water was safe. That was wrong. That was 
not correct information.
    Mr. Cartwright. Do you admit here today that more cases of 
Legionnaire's disease were reported since the switch to the 
Flint River than ``all the cases in the last 5 years or more 
combined?'' Do you admit that?
    Governor Snyder. Yes. And that's why I provided a table 
that shows a number of these cases ----
    Mr. Cartwright. You do?
    Governor Snyder.--were at healthcare facilities. In terms 
of the numbers, there were 87 cases in a 2-year period.
    Mr. Cartwright. You admit here today that even after the 
whole world knew that Flint residents were exposed ----
    Governor Snyder. Congressman, I ----
    Mr. Cartwright.--to unimaginable levels of lead, you did 
not declare a state of emergency until January 2016. Isn't that 
true?
    Governor Snyder. I took immediate action as soon as I 
learned there was a lead issue. We started issuing filters to 
people, doing water testing, doing blood testing, and to be 
honest with you, I wish more would have been done.
    Mr. Cartwright. Governor Snyder, plausible deniability only 
works when it is plausible, and I am not buying that you didn't 
know about any of this until October 2015. You were not in a 
medically induced coma for a year.
    And I have had about enough of your false contrition and 
your phony apologies. Susan Hedman, from the EPA, bears not 
one-tenth of the responsibility of the State of Michigan and 
your administration, and she resigned. And there you are, 
dripping with guilt, but drawing your paycheck, hiring lawyers 
at the expense of the people, and doing your dead-level best to 
spread accountability to others and not being accountable.
    It is not appropriate. Pretty soon, we will have men who 
strike their wives, saying ``I am sorry, dear, but there were 
failures at all levels.''
    People who put dollars over the fundamental safety of the 
people do not belong in government, and you need to resign, 
too, Governor Snyder.
    I yield back.
    Chairman Chaffetz. The gentleman yields back.
    We will now recognize the gentleman from Michigan, Mr. 
Amash, for 5 minutes.
    Mr. Amash. Thank you, Mr. Chairman.
    Thank you, Administrator McCarthy. And I would like to 
welcome you, Governor Snyder, and thank you for your 
willingness to appear before this committee.
    Governor, you spoke about the broken culture at many of the 
agencies in State government. How are you working to change the 
culture within the agencies, specifically the Michigan 
Department of Environmental Quality, that were negligent or 
reckless and failed the citizens of Flint?
    Governor Snyder. I began by changing leadership. I accepted 
the resignation of the department director, and to put it in 
perspective, this was a department director that had served 
under two prior Governors with distinction.
    But we had this issue. It was time to accept his 
resignation. Essentially, under civil service rules, we've 
terminated the head of the water division. That was the one 
that made the terrible decisions with her team to say it should 
be two 6-month studies instead of doing corrosion control. She 
was a 28-year veteran of the department.
    We're going to spend time. We are going to change this 
culture. A bureaucratic culture that focuses on technical 
compliance and doesn't have a sense of urgency should not be 
serving our citizens. There are many good, hard-working people 
that do work for the State of Michigan. There are 47,000.
    But I am committed to finding the instances where these 
people who haven't gotten the idea that we work for the 
citizens, and I am going to be relentless in following up to 
make sure we make the changes necessary that this never happens 
again, whether it's in a water area or any area of our State.
    Mr. Amash. Governor, did State employees intentionally 
withhold information from you?
    Governor Snyder. I don't believe that was the case. What I 
would also say is we had a report from the Office of Auditor 
General that responded to Senator Ananich, and I know you're 
familiar with Senator Ananich, that one of their conclusions 
was is I don't believe they found any willful 
misrepresentation.
    Mr. Amash. And what are you doing to make sure that State 
employees communicate with you, especially regarding issues of 
great importance like the people of Flint?
    Governor Snyder. I stood up in front of the entire State of 
Michigan in my ``state of the State'' address and said these 
people that made these terrible decisions that showed a clear 
lack of common sense failed us. But since they work for me, I 
am responsible for their actions, and I take that 
responsibility. And I kick myself every single day about what I 
could have done to do more.
    But I told the people of Michigan that there's a 
commitment, a passionate commitment to say we are going to 
change the culture in these places. I apologized to the people 
of Flint. They deserve that. I understand why they are angry. 
It's terrible what they're having to go through.
    But I made a commitment to fix the problem. I can't take 
some damage that's been done, as Ranking Member Cummings said, 
but there's a lot we can do to help the people of Flint address 
so many issues. And I am absolutely committed to do that, and 
we are following through and getting that done.
    And I'm going back to Flint tomorrow to roll up my sleeves 
and keep working that issue.
    Mr. Amash. Governor, what is the State's expected budget 
surplus, and how much of that money will be spent on helping 
the people of Flint?
    Governor Snyder. In terms of--I presented the budget in 
February for the State. In terms of surplus, we're actually 
going through two or three steps. I've asked for a total, 
including two supplementals or three supplementals have already 
been passed. But a total of $232 million to help address issues 
in Flint, covering all areas from the water system and 
infrastructure to nutrition, to health, to well-being, to 
economic development.
    All these fields, to do whatever we can possible in terms 
of improving things in Flint. Several of these have already 
passed our legislature. In addition, I asked for $165 million 
that would have been a rainy day fund deposit to go into a 
State infrastructure fund to say this is not an issue just for 
Flint, but let's start putting aside the long-term resources to 
say we have an infrastructure problem in the State of Michigan 
that's a national problem.
    Let's get these lead pipes out of the ground. Let's look at 
setting the right standards. That's why I called the Federal 
lead and copper rule dumb and dangerous. It is.
    And in Michigan, I'm making a commitment. I will be 
proposing legislation. I will be pushing to do everything to 
put a much more stringent standard in because the people of our 
State and our country deserve better than they're getting 
today.
    Mr. Amash. I have a question for Administrator McCarthy. If 
Susan Hedman had not resigned, would you have fired her?
    Ms. McCarthy. That was an issue I didn't need to face, sir. 
As you know, Susan took the choice to submit her resignation, 
knowing that people would question whether that meant she 
accepted some type of guilt or responsibility for this.
    She fully accepted responsibility for the situation, and 
she resigned, and I accepted that resignation. I thought it was 
the right step for her to take.
    Mr. Amash. So the question remains, though. Would you have 
fired her?
    Ms. McCarthy. I--I--I didn't have to face that decision, 
sir.
    Mr. Amash. I yield back.
    Chairman Chaffetz. The gentleman's ----
    Mr. Amash. Yield back.
    Chairman Chaffetz. The gentleman's time has expired.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I very much appreciate this hearing, and I appreciate both 
of you coming.
    I went to Flint, Michigan, especially since the District of 
Columbia had its own corrosion, lead corrosion crisis about 15 
years ago. I was impressed with the many Federal agencies that 
were there.
    But I see responsibility on the part of the Federal and the 
State levels, and I think this House has found this, and I 
commend the House for passing a bill from the Energy and 
Commerce Committee that says that--and is pending in the 
Senate--that the EPA must notify residents when water samples 
show lead levels for the highest 10 percent of homes at above 
15 parts per billion, if State and local agencies don't do it.
    So this protocol, this banter between the State and the 
Federal agencies is very distressing when you're talking about 
irreversible lead in the water. But Governor Snyder, you 
appointed your own task force. It appears not to have minced 
any words. It is a task force that, to your credit, you 
appointed in December 2015.
    And it says that the State of Michigan bears, and here I am 
quoting their words, ``primary responsibility,'' for the water 
crisis in Flint. Do you accept this conclusion from your own 
task force, the people you, I take it, appointed?
    Governor Snyder. Congresswoman, I appreciate you 
referencing that group. Actually, I appointed them in October 
within 2 weeks of learning of this crisis because I believe we 
needed outside ----
    Ms. Norton. Well, this--I have to give you credit because 
this task force, this task force seems to have operated very 
independently. And here I am quoting them again.
    I believe--``We believe the primary responsibility for what 
happened in Flint rests with the Michigan Department of 
Environmental Quality. Although many individuals and entities 
at State and local levels contributed to creating and 
prolonging the problem, the MDEQ is the government agency that 
has responsibility to ensure safe drinking water in Michigan. 
It failed that responsibility.''
    Governor Snyder. And I accepted the report, and I took 
immediate action ----
    Ms. Norton. Thank you very much. I am just trying to make 
clear, and to your credit, you ought to want to spread this on 
the record because this task force--and here is what is really 
interesting to hear them say, and here I am quoting them, found 
that there was ``aggressive dismissal, belittlement, and 
attempts to discredit those efforts and the individuals 
involved.''
    Do you agree with this finding of your own task force?
    Governor Snyder. I do. And those things never should have 
happened, and those folks are no longer with us.
    Ms. Norton. Thank you, Governor.
    This quote seems to--this quote seems to indicate that 
there was an attempt to discredit the work of others who 
apparently ultimately proved to be right. And again, I am 
giving you credit for this task force, but I think this task 
force shows that the State has accepted the responsibility.
    The most serious finding was that the task force found that 
Michigan actually caused this poisoning. It said officials, and 
I quote, ``did not require'' switch--require--the task force 
found that ``the lead and copper rule required corrosion 
control treatment.'' That is to keep lead from leaching into 
the water, which your officials, and I quote them, said it was 
``not required'' when the switch to the Flint River.
    They are saying that they found it was ``not necessary,'' 
according to the task force report, and that this failure ``led 
directly to the contamination of the Flint River water 
system.''
    It seems to me, Governor, that your administration has 
already taken responsibility for what happened and that your 
own task force takes that responsibility. It seems to me here 
today, each and every response should be to echo your own task 
force, that the responsibility lay with the State of Michigan. 
It knew what--the State knew what to do in time, and it did not 
know--and it did not do what it knew had to be done.
    And I thank you, Mr. Chairman.
    Chairman Chaffetz. The gentlewoman yields back.
    I now recognize the gentleman from Florida, Mr. Mica, for 5 
minutes.
    Mr. Mica. Mr. Chairman, members of the committee, I think a 
lot more failed in Flint than the water. It is a failed city. 
We have many of them not only in Michigan, but across the 
country.
    Since we started these hearings, it is amazing. I have 
talked to staff, and we have gotten information that probably 
dozens of communities are facing the same thing. And they are 
coming forward and saying that they have unsafe drinking water 
and high levels of lead, and their kids are being poisoned.
    Governor, you did take some action, and some people have 
been fired. Is that correct?
    Governor Snyder. Correct.
    Mr. Mica. I guess the Flint water head, several others, and 
you suspended other people. Is that correct?
    Governor Snyder. Correct.
    Mr. Mica. And you said everyone shares some blame, 
including yourself, right?
    Governor Snyder. Correct.
    Mr. Mica. What disturbs me is--well, first of all, 
Administrator McCarthy, you had the ability to act when you 
find out that things aren't going right in these systems. You 
have the compliance authority under law, don't you?
    Ms. McCarthy. Yes, sir. Yes, sir.
    Mr. Mica. And who was fired or held accountable in EPA?
    Ms. McCarthy. Well, sir, you have to look at whether or not 
----
    Mr. Mica. Was anyone fired?
    Ms. McCarthy. No, sir.
    Mr. Mica. In fact, what disturbs me, I checked to see like 
Hedman, who was in charge. She was underneath you as a regional 
administrator.
    Ms. McCarthy. Regional Administrator Hedman, yes.
    Mr. Mica. She was getting vacation time bonuses, got the 
last one May 28th while--the regional administrator is getting 
vacation time bonuses while the kids are getting poisoned. She 
finally resigned herself. You never fired anyone.
    You have great people working at EPA.
    Ms. McCarthy. Thank you.
    Mr. Mica. This Mr. Del Toral should get a Congressional 
Gold Medal. Mrs. Walters blew the whistle. She came to the 
local authorities. We had the Mayor in here. She told me in 
March of 2015, she met the Mayor at the library, and he 
promised to do everything.
    She went to City Hall April 3rd or at the beginning of 
April, and no one would see her. She was put off. And to the 
day of the hearing the other day, the Mayor had never talked to 
her after that.
    This--and I said this, now you are pretty experienced. You 
head the EPA. You can read Del Toral's report. It is incredibly 
accurate.
    Ms. McCarthy. Which one, sir?
    Mr. Mica. This is dated in June, and not a damned thing was 
done until--really until January of this year.
    Ms. McCarthy. I think ----
    Mr. Mica. And I went back and asked Mrs. Walters, I said, 
well, when did they finally come in? Because the Mayor and 
others and your EPA administrator from the district said that, 
``Oh, we acted immediately.'' They didn't act. They gagged Mr. 
Del Toral.
    Did you ever see this report, Administrator?
    Ms. McCarthy. I did see that report, sir, yes.
    Mr. Mica. When did you see the report?
    Ms. McCarthy. I don't recall the exact day.
    Mr. Mica. Well, in the June, last summer?
    Ms. McCarthy. Sir, I would suggest ----
    Mr. Mica. Did you see this report?
    Ms. McCarthy. Of course ----
    Mr. Mica. Again, a high school student could take this 
report and determine that kids were getting poisoned. He 
confirmed it. He went in and tested everything, the pipes in 
the building. He looked at the lead lines. He did a thorough 
examination. Then he detailed all the things we have heard 
about, this calendar of failure of Flint--the Legionella, et 
cetera, violations going back.
    And you told me you had the authority. You have the 
compliance authority. Did you ever shut these programs down or 
go after them?
    Ms. McCarthy. Sir, we went ----
    Mr. Mica. You did not.
    Ms. McCarthy. Okay.
    Mr. Mica. You did not. No one acted. Now I heard calls for 
resignation. I think you should be at the top of the list.
    Ms. McCarthy. Mm-hmm.
    Mr. Mica. Again ----
    Ms. McCarthy. Well, sir, if you'd let me answer, I might be 
able to answer ----
    Mr. Mica.--our job, the local job that they failed at the 
local level, they failed at the State level, and we failed at 
the Federal level, and who is in charge? The district head gets 
a vacation bonus. The kids get lead poison. And you are still 
in office.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. The gentleman yields back.
    Ms. McCarthy. Thanks for opportunity to answer.
    Mr. Mica. You are welcome.
    Chairman Chaffetz. Did you have something you wanted to 
say?
    Ms. McCarthy. It would be good if I could, sir. If you 
wouldn't mind?
    Chairman Chaffetz. Sure.
    Ms. McCarthy. Well, I think it's important to know that 
when we found out finally because the MDEQ told us on April 
24th prior to that, that there was no corrosion control 
treatment, reversing what they had earlier told us that they 
did corrosion control in this system, that we had already told 
MDEQ that they actually had to require the City of Flint to 
move ahead with corrosion control treatment well in advance of 
that memo.
    Mr. Mica. This is ----
    Chairman Chaffetz. Let her finish.
    Ms. McCarthy. Thank you.
    And we consistently said the same thing. That is a report 
on three homes in the same area. Because of the complexity of 
lead, we did not and could not have made a concerted judgment 
about whether it was a systemic problem.
    When we had the information, when we received it from MDEQ, 
which wasn't until July 21st, we told them we're done talking. 
We now know it's a systemic problem. You do it, or we'll do it. 
They said, ``We'll do it.''
    And since that point in time, MDEQ slow-walked everything 
they needed to do. That precluded us from being able to jump in 
to the rescue. That is what--that is what happened.
    And if people are worried about whether we silenced Miguel 
Del Toral, Miguel is a hero in this. He remains a central part 
of our decision-making. He is one of our experts we rely on. 
The simple fact is that MDEQ was the one who told everybody 
outside that he was a rogue employee to discredit him, just as 
the MDEQ was doing, as the Governor's task force said, in 
trying to discredit anybody who said there was a problem with 
that drinking water system.
    We were strong-armed. We were misled. We were kept on arm's 
length. We couldn't do our jobs effectively.
    Mr. Mica. Mr. Chairman, I just ask that Mr. Del Toral's 
report of June be included in the record at this point.
    Thank you, and I yield back.
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. Wow, you just don't get it. You just 
don't get it. You still don't get it.
    I will now recognize the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Well, Mr. Chairman, thank you.
    I get it. We are trying to make sure that blame is shifted 
here. It is interesting, for a committee that has practiced 
Alice in Wonderland techniques with management, ``Off with your 
head.'' So when there is a problem at OPM, off with the head of 
the head of OPM. Off with the head of the CIO at OPM. Off with 
the head of John Koskinen, the head of IRS. Off with the head 
of Lois Lerner.
    But Governor Snyder, apparently my friends on the other 
side of the aisle want to make sure your head is securely on 
your shoulders.
    Governor Snyder, do you believe in the philosophy of 
government that says we ought to push responsibility and power 
to the lowest level we can, as close to the people as we can?
    Governor Snyder. As a general rule, yes.
    Mr. Connolly. So in November 2012, the citizens of your 
State rejected the emergency manager law you had advocated in a 
referendum. Is that correct?
    Governor Snyder. Correct.
    Mr. Connolly. And yet, 6 weeks later, you reintroduced 
legislation that was approved by the Republican-controlled 
legislature for a new emergency manager law, PA-436. Is that 
correct?
    Governor Snyder. There was a law that took into account the 
concerns of the citizens, and it was passed by a duly elected 
legislature that represents the people of the State of 
Michigan.
    Mr. Connolly. So that law then allowed you to bypass the 
local governance of the City of Flint and to appoint an 
emergency manager to act for and in the place and stead of the 
government--of the governing body and the Office of Chief 
Administrative Officer of the local government ``from the 
law.'' Is that correct?
    Governor Snyder. Going back to your original question, you 
said ``generally.'' This is a case where there was failure in 
terms of city management ----
    Mr. Connolly. I appreciate it, but I am just asking a yes/
no here. Did you appoint an emergency manager, pursuant to that 
law?
    Governor Snyder. Yes.
    Mr. Connolly. Yes. And that meant the Mayor and city 
council could not exercise any powers unless your handpicked 
emergency manager let them. Is that correct?
    Governor Snyder. Initially, yes.
    Mr. Connolly. Last week, our committee staff traveled to 
Flint, and they conducted a transcribed interview of the last 
emergency manager appointed--you appointed, Gerald Ambrose. By 
the way, you appointed, not Ms. McCarthy. We asked him if he 
considered the city council impotent during his tenure. His 
answer on the record was ``absolutely.''
    Do you know how many pages of edicts were issued by your 
appointed emergency managers in this tragic time period, 
Governor?
    Governor Snyder. No, but also let me respond to your 
comment about Ambrose.
    Mr. Connolly. Well, hold on. Let me just show you because I 
only got 5 minutes. Ladies and gentlemen--hold them up, please.
    These are the stacks of edicts issued by your emergency 
managers, not by the city council of Flint. Now do you how many 
of those 8,000 pages dealt with meaningful steps to protect the 
citizens of Flint from lead flowing through their pipes, 
Governor? Your appointees?
    Governor Snyder. No.
    Mr. Connolly. Not one. Not one.
    Governor Snyder. Congressman, I encourage you to look at --
--
    Mr. Connolly. Now wait a minute. Wait a minute, Governor. 
It is my 5 minutes. I am sorry. I wish I had 10. Then I could 
give you all the time in the world.
    This is a failure of a philosophy of governance you 
advocated. There is no evidence--even after you were warned by 
the Mayor of Flint they had problems and he begged you to come 
to Flint, you ignored him. We have no evidence of you traveling 
to Flint for 7 months, Governor. Seven months.
    I am glad you are sorry now. I am glad you are taking 
action now. But it is a little bit late for the kids in Flint 
whose health has been compromised, for people whose health and 
immunity systems were already compromised, for a city in 
America that is on its knees because of your emergency 
manager's decision to save $4 million.
    And now it is going to cost a lot more to clean up, and the 
taint and the stain that State government has put on this 
country in the form of Flint will be a long time being erased.
    You know, at some point, the buck stops at your office, 
Governor, with your Department of Environmental Quality that 
collapsed, with your emergency managers who were guilty of 
hubris. They knew better than the local elected officials of 
Flint, and they ignored all the warning signs.
    That is the record, Governor. That is your record. And at 
some point, the buck has to stop at your desk.
    I yield back.
    Chairman Chaffetz. The gentleman's time has expired.
    We will now recognize the gentleman from Tennessee, Mr. 
Desjarlais, for 5 minutes.
    Mr. Desjarlais. Thank you, Mr. Chairman.
    And before I yield my time to my good friend from Michigan, 
Mr. Walberg, I would respectfully ask Administrator McCarthy to 
consider scrapping the waters of the U.S. rule, as it is clear 
that EPA cannot currently handle the issues on its plate.
    And I now yield my time to the gentleman from Michigan.
    Mr. Walberg. I thank the gentleman from Tennessee.
    On September 26, 2015, Ms. McCarthy, you received an email 
from Peter Grevatt, Director of the EPA's Office of Groundwater 
and Drinking Water. The whole point of the email was actually 
to share Marc Edwards' documentation of the Flint drinking 
water problems.
    Mr. Edwards ends the email asking the EPA to, and I quote, 
``immediately take decisive action on this issue to protect the 
public.'' Did you read the September 25th email that included 
Marc Edwards' request for action?
    Ms. McCarthy. I did.
    Mr. Walberg. Dr. Edwards is very familiar to this committee 
and the people of Flint. Do you know who Marc Edwards is?
    Ms. McCarthy. Yes. Yes, we've met.
    Mr. Walberg. You have met?
    Ms. McCarthy. We had a meeting, yes.
    Mr. Walberg. How long have you known of Dr. Edwards and his 
work on the water quality?
    Ms. McCarthy. It's just related to Flint, sir. We actually 
have a contract with him to do work with us right now.
    Mr. Walberg. Do you believe Marc Edwards is an expert on 
water treatment and corrosion?
    Ms. McCarthy. I think he is one expert, yes. I would also 
acknowledge that EPA has a number of others.
    Mr. Walberg. The Edwards email gives--including Mr. Del 
Toral. The Edwards email gives key points, summary at the end 
documenting that there is no corrosion control treatment. The 
people can't afford bottled water. MDEQ is continuing to insist 
the water is safe and that they know of a child with elevated 
blood levels already.
    If you received an email documenting all these problems on 
September 25th, including the fact that children have elevated 
blood lead levels, why didn't you act until January 21, 2016?
    Ms. McCarthy. Sir, you're incorrect in saying ----
    Mr. Walberg. I am not incorrect.
    Ms. McCarthy. You are incorrect in saying that we did not 
act.
    Mr. Walberg. We have emails to do this. We have records as 
well.
    Ms. McCarthy. Can I point out ----
    Mr. Walberg. You continue to not take responsibility, 
including writing articles about it. Dr. Edwards is an expert 
on this issue.
    Ms. McCarthy. Yes.
    Mr. Walberg. The people of Flint understand that. He has 
been there. You didn't even show up until February of this 
year, and I remind the Members on the other of the aisle the 
Governor has been there many days. This Administrator of EPA 
didn't show up until February.
    Dr. Edwards said in testimony before this committee that 
Susan Hedman, who you won't fire, you wouldn't fire. You 
wouldn't even give an answer if you would. That Hedman's 
response was completely unacceptable and criminal. That is what 
Mr. Edwards said.
    Ms. McCarthy. Yes.
    Mr. Walberg. Please tell the people of Flint sitting behind 
you and this committee why Marc Edwards is wrong.
    Ms. McCarthy. Well, Marc Edwards is a good scientist, and I 
respect him. If you look at the timeline of when we received 
that email, you will find that the city and county health 
advisory about the Flint water went out on the same day. You 
will find that October 1, they were noticed to have no drinking 
of that water without protection.
    You will find that on October 2nd, the Governor put out a 
10-point plan. On October 3rd, the filters were being 
distributed. I cannot--there is no switch that I can turn on 
that would have ----
    Mr. Walberg. And I am hearing nothing of your action on 
that, and you have the law on your side that says in any, any 
event of imminent danger or health risk, you have the 
responsibility to act. You wrote ----
    Ms. McCarthy. At that point in time, the damage had been 
done ----
    Mr. Walberg. You wrote an op-ed. Excuse me.
    Ms. McCarthy. Okay. Okay.
    Mr. Walberg. I will give you a chance.
    Ms. McCarthy. Okay. Thank you.
    Mr. Walberg. You wrote an op-ed in the Washington Post ----
    Ms. McCarthy. Yes.
    Mr. Walberg.--which stated the EPA's regional office was 
also provided with confusing, incomplete, and incorrect 
information.
    Ms. McCarthy. Yes.
    Mr. Walberg. As a result, EPA staff members were unable to 
understand the scope of the lead problem until more than a year 
after the switch to untreated water. Did the EPA confirm in 
early 2015 that Flint's water pipes lacked corrosion control?
    Ms. McCarthy. In early--no, sir. I did not know that. The 
staff were unaware of that.
    Mr. Walberg. They were unaware of that?
    Ms. McCarthy. Yes. In fact, they were told directly by MDEQ 
on February ----
    Mr. Walberg. What about Mr. Del Toral?
    Ms. McCarthy.--that Flint has optimized corrosion ----
    Mr. Walberg. He was disciplined.
    Ms. McCarthy. He was not disciplined.
    Mr. Walberg. Oh, yes, he was.
    Ms. McCarthy. Okay. Well, he was not.
    Mr. Walberg. That is a matter of record as well.
    Ms. McCarthy. No, I'm sorry, sir. It isn't. It's a matter 
of record that he was not.
    Mr. Walberg. At Tuesday's hearing, Dr. Edwards said some of 
the documents he received from EPA through FOIA requests are 
nearing 90 percent redacted. Dr. Edwards waited 10 years in 
some cases to receive a response to EPA FOIA requests. How is 
this acceptable from an expert?
    Chairman Chaffetz. The gentleman's time has expired, but 
the Administrator may answer.
    Ms. McCarthy. Well, I wanted you to be all clear that the 
emergency order that I issued in January was because of 
continued failure to address the issue. If there was anything 
that I could have done, any switch that I could turn on that 
would have precluded us or allowed us to go further than what 
was already happening at that time, I would have pulled that 
switch.
    What we needed was exactly starting. Were we late in 
getting it done? Yes. Are there consequences to that? 
Absolutely. We have--actually, our regional administrator 
worked very hard to get MDEQ to do their job to get these 
actions in place. So when you're asking did I receive an email 
on a given date, I did. The actions were moving. There was 
nothing else I could have ordered that would have made that 
move faster.
    But I did issue an order in January because even after all 
of this, the order that I issued was questioned by this State, 
by MDEQ, by this State as was that really legally solid. Up 
until today, they continue to drag their feet.
    Chairman Chaffetz. The--go ahead, Governor. Go ahead, if 
you want to.
    Governor Snyder. Yes, I'm sorry, Mr. Chairman. But you can 
only take so much at some point, and all I would do is go to 
the record. And what I would suggest is people look at three 
emails.
    There's an email going back to June 8th '15 from Jennifer 
Crooks from the EPA. It's an agenda for Michigan's semi-annual 
call. There's an email on July 21st '15 from Tinka Hyde. A 
briefing paper with the MDEQ talking about the Federal lead and 
copper rule, including Flint water. On 9/10/15, there is an EPA 
email talking about coming up with a joint strategic action 
plan about the EPA and the MDEQ working together.
    They were in regular dialogue. They're talking about how to 
do things together. And when I read these things, I'm ready to 
get sick. We need urgency. We needed action, and they keep on 
talking.
    And it's not about fighting. They're just not getting the 
job done. We messed up in Michigan to begin with by doing two 
studies instead of corrosion controls. That fundamentally 
caused this problem. I have accepted responsibility because 
those people work for me.
    But it's something different to have this continuing 
dialogue to say it was solely us. This could have been stopped 
sooner if other people could have also spoken up. I'm always 
going to kick myself that our people should have spoken up. I 
should have asked tougher questions. I should have done more.
    But to also say the EPA just didn't get information, I just 
ask you to take the time to go look at those three emails, and 
that will clear the record up.
    Chairman Chaffetz. Thank you. Appreciate it.
    We now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Let us talk about emails, Governor Snyder. 
You have represented to the public that you were unaware of the 
disaster building in Flint until September 2015. I find it hard 
to believe that a crisis of this magnitude completely escaped 
your attention for so long.
    It is clear that your senior staff, people who report 
directly to you daily, were very aware of what was taking place 
in Flint. October 12, 2014, one of your top advisers wrote an 
email to your chief of staff Dennis Muchmore, saying this, and 
I quote.
    ``As you know, there have been problems with the Flint 
water quality since they left the DWSD system, which was a 
decision by the emergency manager there. I think that we should 
ask the emergency manager to consider coming back to the 
Detroit system in full or in part as an interim solution to 
both the quality and now the financial problems that the 
current solution is causing. I see this as an urgent matter to 
fix.''
    Governor, did your chief of staff, who I assume reports 
directly to you, your right-hand man, did he tell you these 
concerns urgently needed to be fixed in October 2014? Did he 
tell you that?
    Governor Snyder. I don't recall. I recall during that time 
period we had issues, and I got briefings, and we discussed 
issues about color and odor of the water.
    Mr. Cummings. Okay.
    Governor Snyder. There was also a concern about E. coli.
    Mr. Cummings. Okay. You said ----
    Governor Snyder. So there were several issues, but none of 
them related to lead because these ----
    Mr. Cummings. But you knew--you know there was a problem 
with the water?
    Governor Snyder. Again, I ----
    Mr. Cummings. You didn't get the email, did you?
    Governor Snyder. I did not get that email.
    Mr. Cummings. Okay.
    Governor Snyder. Right now.
    Mr. Cummings. I remind you you are under oath.
    Governor Snyder. To my knowledge, I did not receive that 
email.
    Mr. Cummings. Okay, I hear you. In February 2015, your 
chief of staff made the following statement, and I quote, 
``After all, if the GM refuses to use --'' GM, GM as in General 
Motors--``refuses to use the water in their plant and our own 
agencies are warning people not to drink it, the differential 
between what we now collect and what we would pay DWSD is not 
significant. We look pretty stupid hiding behind some financial 
statement.''
    Did you talk to him about the concerns in February 2015?
    Governor Snyder. I can't recall specific discussions, but 
we had continuing dialogue about color, odor issues in the 
water. We were tracking issues that were resolved on E. coli, 
on TTHM. The GM issue was a matter of chloride in the water. It 
was acceptable, according to our experts, for human 
consumption. It did create issues ----
    Mr. Cummings. Although it was rusting away brand new--the 
water was rusting away brand new parts at GM, it was okay for 
human consumption? Is that your--and I don't think that was Mr. 
Earley's testimony, by the way.
    Governor Snyder. To put it in perspective, Ranking Member 
Cummings, these are the kind of red flags, though, that I kick 
myself.
    Mr. Cummings. Okay.
    Governor Snyder. Where you wish you would have asked more 
questions.
    Mr. Cummings. Well, let me--you got some more kicking to 
do.
    Governor Snyder. I was getting advice that the ----
    Mr. Cummings. Oh, no, no, no. I want you to finish your 
kicks. On March 2, 2015, your chief of staff offered the 
following assessment about Flint. ``It is tough for everyday 
people to listen to financial issues and water mumbo-jumbo when 
all they see is problems. If we procrastinate much longer in 
doing something direct, we will have real trouble.''
    Governor, did your chief of staff, your right-hand man, 
talk to you back in March?
    Governor Snyder. My chief of staff, we had ongoing 
discussions. I can't recall a specific discussion in March. We 
had ongoing discussions, and he was right to raise concerns.
    Mr. Cummings. All right.
    Governor Snyder. We took actions, including the maximum 
grant we are allowed to do is a $2 million we did earlier in 
the year to help Flint with water infrastructure. We also were 
working on getting filters. Concerned pastors came to us, and 
we got ----
    Mr. Cummings. All right. I am running out of time, and I 
want to be obedient to the time restraints.
    The next day, Mr. Muchmore complained of the lack of--
``lack of empathy for the residents.'' Again, this is your 
right-hand man, and he subsequently said this on your DEQ 
director, Dan Wyant, and I quote, ``I really don't think people 
are getting the benefit of the doubt. Now they are concerned, 
rightfully so, about the lead level studies they are receiving 
from the DEQ samples. These folks are scared and worried about 
the health impact, and they are basically getting blown off by 
us.''
    Governor, did you talk to your chief of staff about those 
concerns?
    Governor Snyder. I had continuing dialogues with my chief 
of staff, and he went out and sought advice or expertise from 
the career bureaucrats not just in one department, but in the 
Department of Environmental Quality.
    Mr. Cummings. All right.
    Governor Snyder. Our experts continued to reaffirm the 
water was safe. The people in the Department of Health and 
Human Services kept on saying they didn't see an elevation in 
blood lead levels, and they were wrong. That was the problem.
    Mr. Cummings. Governor, it seems like there are two basic 
possibilities. Either your chief of staff told you about these 
concerns and you did nothing, or he didn't tell you and you are 
an absentee Governor.
    I yield back.
    Chairman Chaffetz. I thank the ranking member.
    I will now recognize myself for 5 minutes.
    Governor, you have apologized. Correct?
    Governor Snyder. Correct.
    Chairman Chaffetz. There have been people that have been 
fired?
    Governor Snyder. Correct.
    Chairman Chaffetz. Anybody also dismissed or otherwise 
retired?
    Governor Snyder. Yes.
    Chairman Chaffetz. Did the State of Michigan do something 
wrong?
    Governor Snyder. Yes.
    Chairman Chaffetz. Administrator McCarthy, did the EPA do--
in your mind, did the EPA do anything wrong?
    Ms. McCarthy. I don't know whether we did everything right. 
That's the challenge that I'm facing.
    Chairman Chaffetz. The challenge you are facing right now 
is my question. And my question is did the EPA do anything 
wrong?
    Ms. McCarthy. I think we could have been--I would hope that 
we would have been more aggressive. I would hope that we would 
have escalated this issue. If we could have done absolutely 
anything to stand on a rooftop and scream about the challenges 
we're having ----
    Chairman Chaffetz. Okay. So you are just not--here is the 
fundamental difference. First of all, we have jurisdiction here 
in Congress on the EPA. I don't have jurisdiction on the 
Governor. I don't have jurisdiction. I have jurisdiction to 
call him up here, and Republicans did call him up here. He 
volunteered to be here.
    And we are investigating. This is our third hearing on this 
topic. But here is the fundamental difference, and I hope you 
and I hope everybody understands this. I see responsibility. I 
see people that are getting fired. I see changes. I see 
admission that there was fundamental wrongs that happened in 
the organization.
    But then when I turn to the EPA, has anybody been fired? 
That is a question.
    Ms. McCarthy. No, sir.
    Chairman Chaffetz. Has anybody been dismissed?
    Ms. McCarthy. No, sir.
    Chairman Chaffetz. When the EPA Region 5 administrator 
there, Susan Hedman, the day you finally did take decisive 
action, when you were questioned about that, you said that her 
act of stepping down was courageous.
    Ms. McCarthy. I did.
    Chairman Chaffetz. I am going to ask you again. Did the EPA 
do anything wrong?
    Ms. McCarthy. The EPA worked very hard. Let me make one 
statement ----
    Chairman Chaffetz. Okay. No.
    Ms. McCarthy. Let me make one statement.
    Chairman Chaffetz. No, no, no. Because I have another 
question for you. No, hold on.
    Ms. McCarthy. Okay.
    Chairman Chaffetz. Did the--Marc Edwards has testified here 
twice. He doesn't have a dog in this fight other than he wants 
good quality health for people, and he wants good, clean water. 
And he happens to know the science behind the water.
    On those two hearings, did Mr. Edwards say anything that 
you think was wrong or maybe, you know--or inaccurate? Do you 
think Mr. Edwards said anything that was inaccurate or wrong in 
those two testimonies?
    Ms. McCarthy. I think he was not at all informed about what 
EPA did. I think he knows nothing about the law, which he 
readily admits.
    Chairman Chaffetz. He knows ----
    Ms. McCarthy. He doesn't know how we're supposed to work in 
the system. He doesn't understand that the problem itself was 
the responsibility of the States. Oversight was our 
responsibility. We took that seriously, and we conducted it.
    Does that mean I don't have regrets? Because I'd really 
like to ----
    Chairman Chaffetz. Well, that is a whole different 
standard. Everybody--that is a cheat. Oh, yeah, we just got 
regrets. That is a cheat. That is cheap.
    Ms. McCarthy. Well, sir, you have to look at how the law 
works, and we did ----
    Chairman Chaffetz. You know what? And it failed. You 
failed. You said, ``If there is any--anything I could do, if 
there was any switch I could pull,'' you had that under the 
law, and you didn't do it.
    Ms. McCarthy. No, sir. I did not have that under the law.
    Chairman Chaffetz. Yes, you did. If there is an imminent 
threat ----
    Ms. McCarthy. I was given authority ----
    Chairman Chaffetz. If there is an imminent threat, you can 
pull that switch.
    Ms. McCarthy. Only if we are ----
    Chairman Chaffetz. Administrator, you are wrong.
    Ms. McCarthy. There's two parts to that, sir. You skipped 
the second.
    Chairman Chaffetz. What is the second part?
    Ms. McCarthy. You need to have the information to determine 
an imminent substantial threat ----
    Chairman Chaffetz. So why do we even need an EPA? If you 
can't do that ----
    Ms. McCarthy. I'm sorry.
    Chairman Chaffetz.--you are in those homes. No, I am asking 
the questions.
    Ms. McCarthy. Okay.
    Chairman Chaffetz. Yes, okay. In February is when you first 
arrived on the scene, and it wasn't until January of the next 
year that you actually did something. That is the fundamental 
problem.
    Don't look around like you are mystified. That is what 
happened. Miguel Del Toral showed up in February. You didn't 
take action. You didn't. And you could have pulled that switch.
    Ms. McCarthy. We consistently took action from that point 
forward. Consistently.
    Chairman Chaffetz. There are a lot of people in this 
audience from Flint.
    Ms. McCarthy. Sir ----
    Chairman Chaffetz. Nobody believes that you took action. 
You had those levers there. Marc Edwards from Virginia Tech, 
bless his heart ----
    Ms. McCarthy. Sir, we ----
    Chairman Chaffetz. No, just listen for a second. Had the 
opportunity. They have said things like we failed to get EPA to 
take lead in the water risk seriously. It is possible--another 
quote of his, and this is possible because the EPA has 
effectively condoned cheating on the lead and copper rule 
monitoring since 2006.
    He read your op-ed that you put out that was one of the 
most offensive things I could possibly imagine, and he says 
about you, EPA Administrator Gina McCarthy, that effectively 
absolved EPA of any wrongdoing or any role incurring the Flint 
disaster.
    If you want to do the courageous thing, like you said that 
Susan Hedman did, then you, too, should resign. Nobody is going 
to believe that you have the opportunity, you had the presence, 
you have the authority, you had the backing of the Federal 
Government, and you did not act when you had the chance. And if 
you are going to do the courageous thing, you, too, should step 
down.
    My time is expired.
    We will now recognize the gentlewoman from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I think that if the EPA Administrator should do the 
courageous thing and resign, then so should the Governor.
    You know, as a mom, I have been deeply troubled by the 
testimony and revelations that have been raised in this series 
of hearings on the water crisis. It is a kind of human 
suffering that should not happen anywhere, let alone the 
greatest nation on the face of the earth.
    The failures at every level of government in this disaster 
are alarming. I don't think there is any debate at this point 
or any question that it is the Snyder administration's 
Department of Environmental Quality that created this crisis in 
the first place.
    However, as a Member from Illinois and one of the States 
that falls under the EPA's Region 5 alongside Michigan, I am 
also extremely troubled by how the EPA also failed in its duty 
to serve as the last line of defense for the children of Flint. 
And while the Flint crisis has rightfully garnered the most 
attention lately, I am deeply concerned that communities all 
around this country are at similar risk.
    In Chicago, we have one of the greatest--we have one of the 
better quality water systems in the Nation, but we are also 
learning that under the deficiencies in the lead and copper 
rules testing protocols, our Department of Water Management is 
conducting testing that in high-risk instances, and I quote, 
``systematically misses the high lead levels and potential 
human exposure.''
    Furthermore, a report from the Chicago Tribune found that 
since 2003, more than half of the sampling sites tested by the 
Chicago Department of Water Management were in homes owned by 
department employees and might not be located in high-risk 
areas.
    So, Administrator McCarthy, when water systems, such as in 
Flint or Chicago, elect to use their own employees' homes as 
sampling test sites with the employees themselves administering 
the test, what safeguards are in place to ensure that the 
results are not corrupted or skewed?
    Ms. McCarthy. Well, there are protocols for this, and one 
of the things that--things that I have done is to send a letter 
to every Governor and every agency that has primacy on this 
across the U.S. to have them post their protocols to explain 
what they should do again and to make sure that they're 
following that.
    We're also looking at how we can strengthen the lead and 
copper rule. It clearly needs to be strengthened. And I have 
never suggested that the system didn't feel or that EPA isn't 
looking at its own place in this.
    The Office of the Inspector General is looking and 
investigating at my request to make sure that we did everything 
we could with the information available to us. But the one 
thing I'm just trying to make very clear is we did not create 
this problem. The question is did we run in and try to solve it 
and work it as quickly as we possibly could, and what else 
could we possibly have done?
    And I've been trying to look and answer that question. And 
anybody who can tell me what else we could have done under the 
law, I want to hear it, or even under common sense. Because 
this is an area in which I agree with the Governor ----
    Ms. Duckworth. Well, let me answer that for you because I 
am not on your side in this.
    Ms. McCarthy. I realize that.
    Ms. Duckworth. I am certainly not on the Governor's side. I 
am not on your side. The answer to you is would you not rather 
have jumped in too soon, despite the law, to protect the 
children of Flint and be hauled into Congress or testify and 
explain why you stepped in too quickly to safeguard health, as 
opposed to why you didn't act soon enough?
    Ms. McCarthy. Congresswoman, we actually didn't understand 
or know the full extent of the problem until July, July of last 
year.
    Ms. Duckworth. But you still did nothing.
    Ms. McCarthy. No, that is ----
    Ms. Duckworth. Let me make--let us go back to ----
    Ms. McCarthy. Congresswoman ----
    Ms. Duckworth. No, no, no. I am talking here.
    Ms. McCarthy. Okay.
    Ms. Duckworth. Let us go back to the law. You said--
earlier, you said that MDEQ was telling you that they were 
taking action.
    Ms. McCarthy. Yes.
    Ms. Duckworth. So you waited for them to take action, and 
they slow-rowed everything.
    Ms. McCarthy. No. No, Congresswoman, just let me explain. 
There's two tests that Congress has given us because Congress 
was very clear in the law and also in the Congressional Record 
that they wanted us to keep in our lane, and they didn't want 
us to step on States' rights.
    Ms. Duckworth. Okay.
    Ms. McCarthy. Two things. I had to have the data, which I 
told you I didn't have until July 21st, and I had to show that 
the State wasn't taking appropriate action. On the 21st, they 
said they would. I had no justification legally.
    So what we tried to do was to get information into the 
community's hands. We tried to tell the public there is a 
problem here.
    Ms. Duckworth. Okay. I only have 30 seconds left. So I am 
going to take my 30 seconds. Do we need to change the law? Do 
we need to change the statute so that you will step forward 
sooner when you have an epic failure on the part of the 
Governor of a State, as is in the case of Governor Snyder's 
absolute failure in protecting his citizens in Michigan?
    Do we need to change the law?
    Ms. McCarthy. Well, it's a very--a very high hurdle.
    Ms. Duckworth. Because we asked this question of the EPA as 
recently as yesterday, and you didn't answer it. And so, tell 
me, do you need to change--do we need to change the law so that 
you step in sooner?
    Ms. McCarthy. It is a very high hurdle, but I will say in 
35 or 36 years almost of working in this business, this is the 
first time that I have seen a State fail to abide by the 
recommendations we're giving them.
    Ms. Duckworth. You are not answering my question.
    Ms. McCarthy. But most States work collaboratively with us. 
We have to strengthen the lead and copper rule for sure.
    Chairman Chaffetz. The gentlewoman's time--the 
gentlewoman's time has expired.
    Members are advised that there is a vote on the floor. It 
is the first of probably two votes. We are going to stand in 
recess and reconvene no sooner than 10:45 a.m.
    The committee stands in recess.
    [Recess.]
    Chairman Chaffetz. The committee will come to order. We 
will now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Administrator McCarthy, I am sure I am assuming that you 
either saw or you were briefed on the hearing that was held by 
this committee this past Tuesday. Is that correct?
    Ms. McCarthy. I was brief on it, yes, sir.
    Mr. Hice. Okay. Then I am sure you are aware that Susan 
Hedman, of course, former head of Region 5, testified under 
oath that she acted immediately upon the findings regarding the 
present high level of lead in the water.
    However, in the same hearing, Dr. Edwards, whom you just 
referred to moments ago as both an expert and a hero in this 
whole matter, he repeatedly, time and again, refuted her 
testimony and thereby, obviously, the entire region's actions 
to this thing. And so let me start right here.
    Do you believe that Susan Hedman provided this committee 
with false testimony on Tuesday?
    Ms. McCarthy. To the best of my knowledge, no, she did not.
    Mr. Hice. Okay. Governor, let me ask you the same question. 
How do you feel about the testimony from Ms. Hedman?
    Governor Snyder. Um ----
    Mr. Hice. In regard to the EPA acting immediately upon 
getting information?
    Governor Snyder. Congressman, I appreciate--oh, I'm sorry. 
Congressman, I appreciate your question. That's why I had that 
moment where I cited three emails in particular that were EPA 
emails to the DEQ, and it was talking about their partnership 
to work these issues, and no flag was going up.
    And I heard this. I'm sorry. For a moment, I heard this 
entire discussion about the law and this issue about saying you 
couldn't do things or couldn't do this or that because of the 
law. I have a really simple question. Why didn't Susan Hedman 
just call Dan Wyant?
    Why didn't Administrator McCarthy just get on the phone and 
call me? This is now technical compliance again. This is that 
culture that got us in this mess to start with. Where is common 
sense?
    Mr. Hice. All right. Let me continue on. Thank you for your 
answer.
    Ms. McCarthy, so is it your testimony then today under oath 
that you believe that Susan Hedman and Region 5 did act 
immediately and do everything they could upon hearing the 
information?
    Ms. McCarthy. They did, and they sought additional 
information. They did reach out. They consistently, from April 
on, when they found out there was no corrosion control, they 
consistently ----
    Mr. Hice. All right. We have conflicting info on that. But 
that is your testimony under oath. Let me ask you this.
    Ms. McCarthy. Mr. Hice, I'd just like everybody to look at 
the entire email record and not just a few.
    Mr. Hice. We are. Speaking of emails, in September of last 
year, you were praising Susan Hedman and other EPA officials 
for their work on the Flint water crisis. Do you believe that 
that praise of Ms. Hedman was warranted?
    Ms. McCarthy. I do.
    Mr. Hice. Okay. I have here two letters, one written to--
well, written from, in fact, Mr. Kildee, written to you in 
September, and it was asking you, begging you, please get 
involved in this situation. Are you familiar with that letter?
    Ms. McCarthy. Yes, sir.
    Mr. Hice. Okay. You did not respond to that letter. Susan 
Hedman responded, I am assuming on your behalf.
    Ms. McCarthy. Yes.
    Mr. Hice. Did you authorize her to do so?
    Ms. McCarthy. Yes, I did.
    Mr. Hice. Okay. Her response basically just fluffed off the 
entire thing, and by the way, Mr. Chairman, I would like both 
of these letters to be submitted for the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Hice. And all of this is taking place in September at a 
time when you praising--did you at the same time praise Del 
Toral?
    Ms. McCarthy. I actually did not know Miguel Del Toral at 
that point in time.
    Mr. Hice. So you were not aware of the report or any--in 
September?
    Ms. McCarthy. I was aware of the report. I did not know him 
in particular.
    Mr. Hice. Okay. But you were aware of what he had brought 
forth, and you have referred to him as a hero ----
    Ms. McCarthy. And my email to Susan was her whole team.
    Mr. Hice.--but you were not praising him, but you were 
praising Susan Hedman at the time?
    Ms. McCarthy. Well, if you read it, it's to her and her 
team, and he was a vital member of that team.
    Mr. Hice. So are you aware of any retaliation against Del 
Toral?
    Ms. McCarthy. No, I'm not, sir.
    Mr. Hice. So, and yet we have testimony or we have records 
that reflect that he certainly was retaliated against and was 
fearful of greater retaliation. But you are saying you have no 
knowledge of that whatsoever?
    Ms. McCarthy. I do not believe that he was retaliated 
against. I have no information that indicates that he was.
    Mr. Hice. Okay. Mr. Chairman, I will cede with further 
questioning. My time has expired. But thank you, and I will 
submit these.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Thank the witnesses for being here.
    Governor, I just had a question. Are there any arrangements 
being made for the people of Flint to get their money back for 
paying for water that obviously is damaging?
    Governor Snyder. Yes, Congresswoman. That process has 
already been set up. The appropriation has been made.
    Ms. Kelly. Okay.
    Governor Snyder. We made a calculation. And again, people 
shouldn't have to pay for that water in terms of ----
    Ms. Kelly. I agree.
    Governor Snyder. So what we did is we did an analysis to 
show--there is a water and sewer bill. The sewer piece is a 
separate issue, but with respect to the water bill, we tried to 
do a calculation and we roughly said about half the water was 
for drinking, cooking, those kind of activities. The rest is 
for flushing your toilet, doing your laundry.
    We rounded up to 65 percent. We went back in the records to 
April of 2014 through the period, and again, we--for our math, 
we used the end of April 2016. I'm not saying it will be done 
by then, and we'll add months if we need to. We did a 
calculation, and 65 percent of the water portion of the water 
and sewer bill amounted to $30 million, roughly.
    I went and asked for a supplemental appropriation. The 
legislators were very supportive. We've got that in place. Now 
we're working with the city, which actually runs the utility, 
to have some software programming done so we can apply it as a 
credit on their bill.
    And the way it should work is as we get this set up ----
    Ms. Kelly. Okay. I just wanted to know that.
    Governor Snyder. I'm sorry. Just we are working hard to get 
this taken care of.
    Ms. Kelly. As the chair of the Health Braintrust for the 
Congressional Black Caucus, you know, part of my mission is to 
look out for healthcare for underserved communities, low-income 
communities, and communities of color. And I have to tell you 
this really reeks of environmental discrimination, in my 
opinion.
    Administrator McCarthy ----
    Governor Snyder. Could I ----
    Ms. Kelly.--I want to ask about the State's repeated 
refusal to implement corrosion control, which the Governor's 
own task force concluded led to the mass poisoning of Flint 
residents. Let us walk through this quickly.
    Governor Snyder's administration made the switch to the 
Flint River in April 2014. They initially told the EPA they had 
corrosion control in place. Is that right?
    Ms. McCarthy. That's correct.
    Ms. Kelly. Okay. But that was wrong. They didn't have it. 
According to the Governor's own task force, they told the city 
it was ``not necessary.'' EPA discovered this, and on April 24, 
2015, EPA official Miguel Del Toral sent an email to Governor 
Snyder's administration expressing concern that they had not 
started implementing corrosion control.
    He wrote, and I quote, ``As far as treatment determination, 
there are only two scenarios for a large system to be deemed to 
have optimized corrosion control without treatment, and Flint 
does not appear to meet either.'' Is that correct?
    Ms. McCarthy. That is correct.
    Ms. Kelly. Okay. Here is where I get really concerned. Even 
though the EPA told Governor Snyder's administration to 
implement corrosion control, they didn't do it. Months went by 
with no action by the State.
    Finally, on August 17, 2015, the Michigan Department of 
Environmental Quality told Flint, and I quote, ``The city must 
now recommend a treatment to fully optimize corrosion control 
treatment within 6 months.''
    So the State's response didn't happen until August. That 
was 4 months after the EPA warned Governor Snyder's 
administration that they had to do something. Is that right?
    Ms. McCarthy. That's correct.
    Ms. Kelly. Also, to me, 6 months seems ridiculously long 
time to wait when lead has been leaching from the pipes for 
over a year, and people throughout Flint were getting poisoned. 
Do you agree?
    Ms. McCarthy. Yes, I do.
    Ms. Kelly. That 6 months is way too long to wait. As it 
turns out, the State never implemented corrosion control prior 
to the switch back to the Detroit River in October. And in 
December, the Governor's own task force, as we have heard, 
concluded that the actions of Governor Snyder's administration, 
and I quote, ``led directly to the contamination of the Flint 
water system.''
    Do you agree with that finding?
    Ms. McCarthy. Yes.
    Ms. Kelly. I know people have asked you if you have any 
regrets or if you wish EPA had done anything differently. In 
this case, it seems like Governor Snyder and his administration 
were fighting you at every turn. They were completely unable to 
handle the crisis.
    Looking back, do you regret that you didn't recognize the 
utter dysfunction in the State sooner so you could step in and 
take away control from Governor Snyder and his administration?
    Ms. McCarthy. I think there were dots that we could have 
connected. I think we spent way too long trusting the State 
that they were doing the right thing. We begged to provide them 
technical assistance beginning in March. We begged them 
beginning in April to do corrosion control.
    We begged them at the city level and the State level with 
personal communications, as well as professional.
    Ms. Kelly. Because you are hearing it today and I have 
heard that, you know, accusations that EPA was too slow in 
responding to the Flint crisis. I agree that EPA should have 
acted more quickly to rescue the people of Flint from this 
mismanagement of the Governor and his administration, but it is 
the State that has the primary authority to enforce the Safe 
Drinking Water Act. Correct?
    Ms. McCarthy. That's correct. And the hurdle to have done 
that, we didn't have the data until July 21st to tell us the 
scope of the problem, and we didn't have an ability then 
because they kept saying they were going to fix it. That's the 
way the law requires us to act.
    Ms. Kelly. Thank you. And I also feel it is very ironic 
that Michigan's slogan was ``Pure Michigan'' because that was 
not the case.
    Thank you. I yield back.
    Chairman Chaffetz. The gentlewoman yields back.
    Now recognize the gentleman from Alabama, Mr. Palmer, for 5 
minutes. Mr. Palmer is over here.
    Mr. Palmer. Thank you, Mr. Chairman. I need my notebook.
    Ms. McCarthy. Oh, I'm sorry. Thank you. Couldn't find him.
    Mr. Palmer. Mr. Chairman, I just got my notebook back. May 
I yield and come back later?
    Chairman Chaffetz. Yes. Let us actually recognize the 
gentleman from Arizona.
    Mr. Gosar. Thank you, Chairman.
    I think Mr. Meadows is first. Okay. Well, Ms. McCarthy, how 
serious do you consider lead poisoning of humans, especially 
children?
    Ms. McCarthy. It's one of the most serious things that we 
face, sir.
    Mr. Gosar. Wow. Okay. So let us go back because in July of 
2015, Flint Mayor Dayne Walling emailed EPA Region 5 
administrator Susan Hedman about a leaked internal memo that 
was sent by EPA employee Miguel Del Toral to a Flint resident. 
The memo revealed that Flint's water tested high for lead, and 
Del Toral recommended that the EPA intervene.
    Administrator Hedman replied that the memo should not have 
been leaked, called it a ``preliminary draft report,'' and did 
nothing to address the serious threat that lead had created for 
the citizens of Flint.
    When you were made aware of these communications between 
Ms. Hedman and Mayor Walling, did you ask Ms. Hedman to resign?
    Ms. McCarthy. I do not believe that she indicated that any 
memo was leaked. It was actually sent out ----
    Mr. Gosar. No, no. This is factual. So I mean ----
    Ms. McCarthy. I'm trying to just get the facts ----
    Mr. Gosar. The facts are here. So, I mean, knowing this, 
did you ask her to resign?
    Ms. McCarthy. No, sir ----
    Mr. Gosar. I mean, so why not fire her?
    Ms. McCarthy. Sir, her concern ----
    Mr. Gosar. I mean, you know the seriousness of this issue, 
and yet you still don't do that. In fact, I am going to quote 
you. You praised her when she resigned.
    Ms. McCarthy. She was not criticizing ----
    Mr. Gosar. I mean, that is ----
    Ms. McCarthy. She was not criticizing Miguel's report. She 
was indicating that it was interim. There was more data to be 
done, and she was giving a heads-up because she knew that it 
had gone public because Miguel actually ----
    Mr. Gosar. Oh, okay. So you know about the seriousness of 
the lead poisoning, and yet this is the action you take?
    Ms. McCarthy. This ----
    Mr. Gosar. Once again, I want to step you back. You made 
another comment here earlier that is insulting to us. Congress 
is specific on this about States' rights and not stepping on 
them. I want you to go back and start looking at your edit in 
regards to waters of the U.S. Let us keep going.
    Is that a serious response really in regards to ----
    Ms. McCarthy. What?
    Mr. Gosar.--your response to Ms. Hedman. Is that seriously 
a response for somebody who understands the complexity and 
seriousness of lead poisoning? That is an appropriate response?
    Ms. McCarthy. She did nothing to discredit ----
    Mr. Gosar. That is my point. She did nothing. The point is 
you know better. She knows better. All we--this is not my first 
rodeo with you. Over and over again we have gone it. Remember 
Southwest Colorado and an ineptitude that you actually had 
there, too. There is a responsibility.
    I look at the gentleman next to you as taking 
responsibility. I am looking at somebody else. I want to see 
responsibility, too, and the American people demand it. I mean, 
all I seen it, I have seen the chairman--over and over again, 
you still don't get it. Member after Member, you still don't 
get it.
    You have bred a culture at EPA that is built of fraud, 
denial, incompetence, and bureaucratic nepotism. That is what 
you have done.
    Ms. McCarthy. Well, sir, I'm not trying to shift 
responsibility or blame. I'm just trying to get facts on the 
table.
    Mr. Gosar. Yes, you are. This whole hearing that is all you 
have done is you have never taken accountability for any of the 
problems at the EPA. It is could we have done something better? 
Do you admit wrong? Maybe we could have done something a little 
bit faster. The timelines are very full and very factual.
    So let me ask you another question. I want to go back to 
another thing. The committee has made multiple requests for 
EPA's documents relating to Flint. When do you expect those 
requests to be fully complied with?
    Ms. McCarthy. Sir, we're working on all of the requests as 
fast ----
    Mr. Gosar. Give me a date. I mean, you are a professional 
at slow-walking and delaying information that is pertinent to 
this investigation over and over again. Some of the document 
productions have been redacted. Will you provide this committee 
with the full, unredacted copies of those documents?
    Ms. McCarthy. Well, we released just 30,000 documents, sir. 
We'll keep releasing those, and I'm happy to give you a 
schedule on that when I can ----
    Mr. Gosar. I asked you a--no, no, no. I asked you a 
question, specific terms. Are you going to release unredacted 
forms of these emails?
    Ms. McCarthy. Of course, we'll respond to Congress and 
allow you to do your jobs as well.
    Mr. Gosar. Well, yes.
    Ms. McCarthy. I just can't give you a schedule, sir.
    Mr. Gosar. That is the same old--same old crap that we hear 
over and over again. And that is not what the President 
promised us. He said the most transparent administration, 
period. And that includes you.
    I mean, I am sick of this. And America should be sick of 
this bureaucratic nepotism, and you are the culture of the 
problem. I see somebody who is addressing it right here, as 
Governor of Michigan. But I don't see anything coming from your 
part of this problem. It doesn't condone that.
    Not only am I asking you to be fired, if you are not going 
to resign, you should be impeached.
    I yield back.
    Chairman Chaffetz. The gentleman yields back.
    We now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    I want to say, as a Member of Congress representing a part 
of Michigan, this is very personal. It is a sad day for me.
    Governor Snyder, you have stated that State officials did 
not tell you about these problems. As a matter of fact, in your 
statement--you swore an oath--you said it wasn't until October 
that you were aware of the problems.
    But Governor, despite the huge numbers of news stories that 
were reported far and wide, let me show you some of those 
headlines. On June 2, 2014, only months after switching to the 
Flint water, NBC 25 stated, ``Flint residents avoiding the tap, 
drinking bottled water instead.'' On June 30, 2014, NBC 25 read 
the headline story, ``Sewage released into the Flint River due 
to pump failure.''
    It continues. In a little over a month, Detroit Metro Times 
ran ``Flint residents concerned over discolored water.'' And it 
continues. On September 7, 2014, Michigan Live ran ``Flint 
expands boiled water advisory after more positive tests for 
total bacteria.''
    And then it continues, on January 2, 2015, Michigan Live 
reported, ``City warns of potential health risks after Flint 
water tests reveal too much bacteria.'' It continues. March 
2015, the Detroit News said, ``Flint council votes for Detroit 
water, Mayor and EM are opposed.''
    Did any of these reports and stories ever get reported to 
you? Did you ever observe them? Because according to your 
statement under oath, it was not until October that you became 
aware.
    Governor Snyder. There's a difference in terms of what I 
became aware of. I was aware of water problems, and I was 
involved in having discussions to address those in terms of the 
resources we had currently available to us.
    In terms of going back to your list, the color and odor of 
this water was not good, and you don't want to see people drink 
that if you can help that. But we didn't have all the resources 
we needed to do then, and they were working on these issues.
    In terms of E. coli, in terms of other issues, we would 
continually go through in terms of ----
    Mrs. Lawrence. Mr. Snyder?
    Governor Snyder.--my administration and actually ask the 
experts ----
    Mrs. Lawrence. I want to add another, add another article. 
The National Journal, which I hold up here.
    Governor Snyder. Yes.
    Mrs. Lawrence. It says, ``Michigan Governor Snyder conceded 
Monday that his administration's handling of the Flint water 
crisis is a stain on his legacy,'' and I quote, ``I'm not sure 
of the specific dates in terms of saying there are--there is 
any lead in the water sometime during 2015.'' Again, they 
presented some of the information about having to do with a 
second set of tests.
    Governor Snyder, we all know that when we are elected to an 
office, we take an oath, and we are empowered by the electorate 
to hire staff. Do you have regular staff meetings with those 
who report to you?
    Governor Snyder. I have regular discussions, and I get 
briefings from staff meetings.
    Mrs. Lawrence. During these briefings, are you saying that 
the people you entrusted and you pay a salary with the 
taxpayers' money, that they failed to inform you of a health 
crisis in your State?
    Governor Snyder. I will actually share the document with 
you, Congresswoman. This is my briefing of September 28th, '15. 
This was after ----
    Mrs. Lawrence. Before that time. Before that time.
    Governor Snyder. This is the briefing ----
    Mrs. Lawrence. All the time these headlines are going, you 
did not ----
    Governor Snyder. This briefing is still saying ----
    Mrs. Lawrence. You did not have any member--when you have 
Mr. Muchmore, who is your chief of staff, sir--this is dated 
July 22nd--telling other members of your circle, sir, that ``I 
really don't think people are getting the benefit of the doubt. 
Now they are concerned, and rightfully so, about the lead 
studies.''
    Sir, this was January the 22nd. The 22nd. And you are 
saying under oath that it wasn't until October. It was not 
until October.
    Governor, you are my Governor. This could have been my 
city. And Governor, I just--for the life of me, I cannot 
understand that you, as a Governor, who led on the premise of 
operating as a business, you are going to operate as a 
government, that you met with your staff and they refused to 
bring you up to date, refused to bring you in, or you refused 
to engage.
    This is a sad day in this country, and I am just sad about 
this, Governor. I am very sad about this. And accountability, 
accountability for those that you held accountable. You said 
you fired or they resigned. What does accountability look like 
for you?
    Chairman Chaffetz. The gentlewoman's time has expired, but 
the Governor may answer.
    Governor Snyder. Congresswoman, this is a sad event.
    Mrs. Lawrence. It is so sad.
    Governor Snyder. This is a tragedy that never should have 
happened, and I understand why the people of Flint, they should 
be angry. In terms of looking at this, I kick myself every day, 
asking what more questions could I ask, what we could have 
done. We had a lot of discussions about water during that 
entire period, in line with the headlines you said.
    But as we go back, the experts over and over again, we were 
told the water was safe. That was wrong, and I didn't--it 
wasn't just one department. As it continued on, we got 
information not only from the DEQ, but the Department of Health 
and Human Services that they didn't see elevated levels in 
blood. That was wrong.
    Dr. Mona spoke up. So we had cases where it took outside 
experts. That's tragic. We failed at doing what should have 
happened in terms of career bureaucrats that were experts, 
``experts,'' that to be open with you, I get so mad that I 
never should have believed them.
    And it ultimately came down to finally saying after those 
reports came out in September from Dr. Mona Attisha Hanna and 
from Professor Edwards, I said we have to have a call. That 
call was on September 28th. I'm happy to have this in the 
record. It's tragic to have it in the record.
    It's to say here's my briefing from the night before, and 
it's information from both those departments dismissing people, 
not talking about the real issue. And when we got on that call, 
no, that was enough. But it was later than it should have been. 
I wish it would have been far earlier.
    So the issue was, is I took immediate action. DEQ started 
talking about there could really be a lead problem. We had to 
confirm the data on the blood level test. They came back and 
said Dr. Mona's work was correct.
    And then we ramped into action in terms of filters, 
opportunities to do things, and that still wasn't enough. Every 
day I get up, and I say what we can do ----
    Mrs. Lawrence. There is a culture ----
    Chairman Chaffetz. The gentlewoman's--the gentlewoman's --
--
    Mrs. Lawrence.--in the State government that refused to 
give you information.
    Chairman Chaffetz. The gentlewoman will suspend.
    Mrs. Lawrence. And we have to stop that.
    Chairman Chaffetz. The gentlewoman will suspend. We have 
been going--I appreciate the emotion and the connection to 
Michigan, but the gentlewoman's time has expired.
    We have dealt with this ----
    Mrs. Lawrence. And I yield back.
    Chairman Chaffetz. The gentlewoman yields back.
    Governor, did you finish that question, or can we go to--
yes, okay. We will go now to Mr. Palmer of Alabama for 5 
minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    I want to follow up on some questions that have been asked 
and a point that was made. And you were asked, Governor Snyder, 
how did this escape your attention? And I just want to point 
out that your executive responsibilities include fiscal 
management and administrative oversight over multiple agencies. 
I think there are 18 agencies in Michigan.
    Among those are education, Medicaid, public safety, health 
and human services, that sort of thing. This is in no way 
excusing you from the failure to protect the people of Flint, 
Michigan. But what I want to ask and I want to know, Ms. 
McCarthy, you have one agency, one agency, tasked with 
protecting the public in terms of environmental issues. How did 
this escape your attention?
    Ms. McCarthy. The issue was called to my attention on 
September 3rd. Prior to that, it was called to Susan Hedman's 
attention, let's see, in late June. And Susan took action. 
Prior to that, the agency was directly involved.
    I don't want anyone to think that January of this year was 
the beginning of our involvement. We actually heard from people 
back when the switch was made, and we relied too heavily ----
    Mr. Palmer. Ma'am? Ma'am?
    Ms. McCarthy.--on the judgment of MDEQ and the fact that 
they were acting as a partner with other States, and we 
shouldn't ----
    Mr. Palmer. Ma'am, I just want to point out, though, that 
you were--you sent an email February 26th. Actually, it is 2 
days before Mr. Snyder made his call to take immediate action. 
And it appears he took immediate action. And you wrote to--and 
said this, that these Hedman and Grevatt emails ``raised my 
level of concern,'' and then you suggested that they take 
options to intervene. But it wasn't until January 21st that you 
issued an order demanding action.
    Ms. McCarthy. There is different levels of engagement and 
intervention. This agency aggressively intervened from day one.
    Mr. Palmer. That is not--that is not the information that 
we have gotten. That is not what we are hearing from other 
folks.
    Ms. McCarthy. I appreciate, sir, that. But that is a feel-
safe that is a very high hurdle for the agency to take. We did 
take that when we thought that all of the other steps weren't 
working, and we took the step that was available to us in 
January. But it wasn't as if we didn't offer or intervene or 
provide advice in a way that the statute directs us to do.
    Mr. Palmer. But there wasn't a sense of urgency here.
    Ms. McCarthy. Oh, there was a sense of greater ----
    Mr. Palmer. You had--you had a paper. Mr. Mica brought that 
up. You had a research document.
    Ms. McCarthy. Yes.
    Mr. Palmer. A report from Mr. Del Toral.
    Ms. McCarthy. Yes.
    Mr. Palmer. And you deny that he was treated like a 
whistleblower, and we believe that happened. We have also seen 
emails from EPA officials to EPA officials on their personal 
email, by the way, which apparently that is okay at the EPA. 
You use your personal email and texting.
    And it also went to DEQ, Governor Snyder, saying that the 
EPA was going to provide cover so that they could literally say 
they didn't get the report. We have got the email. So it 
appears to me that not only did you not take action, there was 
a cover-up going on that involved both the State of Michigan 
and the EPA.
    But I think, fundamentally, the problem is with the EPA and 
not taking adequate action on revising the lead and copper 
rule. You guys have a history of covering up. You covered up 
the toxic release in Georgia. You tried to cover up the toxic 
release, your responsibility of the toxic release in Colorado. 
There is a pattern here.
    And I just, for the life of me, cannot understand why the 
Federal Government has the public trust to protect the people 
of this country and we fail time and time and time again. And 
again, the State of Michigan is culpable in this, and I 
appreciate the fact that you have taken responsibility. But 
there is a whole lot more here, and I am going to ask one 
question. This is a yes or no. So don't filibuster the answer.
    If Susan Hedman had not resigned, would you have fired her? 
That is a yes or no, Ms. McCarthy.
    Ms. McCarthy. I didn't need to face that answer.
    Mr. Palmer. No, no. It is a yes or no.
    Ms. McCarthy. That is the best answer I can give you.
    Mr. Palmer. That is not a good answer.
    Ms. McCarthy. Okay.
    Mr. Palmer. Would you have fired her? Can you not hold 
anyone responsible for these actions? Are you incapable of 
that?
    Ms. McCarthy. I actually will, but the failures that have 
been identified ----
    Mr. Palmer. When?
    Ms. McCarthy. The failures so far that I understand were a 
failure on our part because the region actually trusted the 
State.
    Mr. Palmer. You are filibustering.
    Ms. McCarthy. Instead, we talked too long.
    Mr. Palmer. Governor Snyder, I have got one last question 
for you. Michigan has a $600 million surplus and over $380 
million emergency fund. Do you have the resources to fix this 
problem?
    Governor Snyder. We're devoting $232 million is the 
appropriation I'm asking for for Flint. There is a huge number 
of actions. We've already gotten $67 million of that approved 
through our legislature. I'm putting for--I'm asking for $165 
million to go in a statewide infrastructure fund to deal with 
not only Flint, but other communities as a catalyst to start 
this discussion.
    So we've made a huge commitment, and I'm on the ground 
there, taking actions with a great team of people because they 
deserve a fix. And I appreciate this committee doing hearings 
on why. Be open with you. My heart and focus is what can I do 
every day to make Flint a better place to help make up for this 
tragedy?
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Chaffetz. The gentleman's time has expired.
    We will now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    One quick statement to Ms. McCarthy. We are finding out 
that even in the State of New Jersey, we have issues where high 
lead content exists, and children are being exposed. I don't 
know what you are doing, but I hope that when I call back to 
New Jersey, you all are doing something there.
    Ms. McCarthy. We sure are.
    Mrs. Watson Coleman. Thank you.
    Governor, how long have you worked with your chief of 
staff? How long has he been your chief of staff?
    Governor Snyder. I have a relatively new chief of staff.
    Mrs. Watson Coleman. Well, the chief of staff that was in 
the position when all of this occurred, how long had you worked 
with that chief of staff?
    Governor Snyder. He had joined me when I took office in 
January of 2011.
    Mrs. Watson Coleman. 2011. And before that, did you have 
any relationship with this chief of staff?
    Governor Snyder. No.
    Mrs. Watson Coleman. And do you know the first time this 
chief of staff had any knowledge of serious water problems in 
Flint, Michigan? The first time he knew?
    Governor Snyder. I can't answer that question. I don't know 
a specific date.
    Mrs. Watson Coleman. Do you rely upon your chiefs of staff 
like most of us rely upon ours, almost with our lives, to give 
us heads-up and to make sure that nothing confronts us that 
would embarrass us or put us in a bad position? Did you have 
that kind of relationship with your chief of staff?
    Governor Snyder. I view chiefs of staff as critical people 
that are part of the team for good, bad, whatever. But they're 
a key part of the team.
    Mrs. Watson Coleman. So would you really have us believe 
that your chief of staff never pulled your coattail in 
conversation in your office, on the phone, or whatever about 
what was happening in Flint, Michigan, and the complaints that 
were arising from both the residents, from other officials, as 
well as what was being reported in the media?
    Governor Snyder. Yes, Congresswoman, as I said before, we 
actually had discussions on water issues in Flint. In terms of 
going through issues on topics, none of these issues dealt with 
the lead issue until much later in the process because our 
experts continually said there was not a problem.
    Mrs. Watson Coleman. But even if you weren't dealing with 
the lead issue, did you really deal with any other issue that 
presented a health condition to the people who were drinking 
that nasty water?
    Governor Snyder. Yes. There was one concern--and there was 
multiple concerns. The one that rose that actually was a major 
issue was TTHM, trihalomethanes, in particular.
    Mrs. Watson Coleman. I know what it is.
    Governor Snyder. So we had to address that issue, and we 
tried--we worked to get relief to the City of Flint.
    Mrs. Watson Coleman. I see that there is a lot of 
discussion to take place, but I don't see that a lot of work 
was done because I don't see that a lot of accomplishment took 
place.
    Let me go to something else. You campaigned on reinventing 
government, and you said the government should be run like a 
business. Your administration and the emergency managers you 
appointed to control the City of Flint gambled with the health 
and welfare of the people in your city in order to save money. 
And those people, through no fault of their own, are now paying 
that price.
    Governor, I want to know, I want to know, did that 
emergency management system fail under your leadership in this 
instance?
    Governor Snyder. In this instance, it would be much to the 
case that I have is you wish they would have asked more 
questions. They would have pushed harder ----
    Mrs. Watson Coleman. So is that a yes or a no?
    Governor Snyder. In this particular case with respect to 
the water issue, that would be a fair conclusion.
    Mrs. Watson Coleman. It would seem to me that is a very 
important issue, since it negatively impacts the health and 
well-being of children perhaps even into their adult lives, 
impacting their ability to learn and to be successful in life.
    Your own former adviser, Dennis Schornack, learned the 
lesson because he said, ``Government is not a business, and it 
cannot run like one. The people of Flint got stuck on the 
losing end of decisions driven by spreadsheets of water quality 
and public health.''
    Were you wrong to run that government like a business?
    Governor Snyder. In terms of running it like a business, a 
government is not a business.
    Mrs. Watson Coleman. It isn't. So why would you say it 
should be run like one?
    Governor Snyder. In terms of accountability and 
measurements and delivering real results to people and in terms 
of not just Flint, but the State of Michigan, I'm very proud. 
We did things as Healthy Michigan, bringing Medicaid expansion 
to citizens, bringing Healthy Kids Dental to help kids with 
dental care.
    Mrs. Watson Coleman. You know what? You know, you can just 
go right on and just talk about all the things you want to talk 
about. I am going to ask the questions I want to ask.
    When the elected leaders of Flint wanted to switch back to 
safe water drinking from the Detroit system, your handpicked 
emergency manager overruled them, saying, ``It would be 
incomprehensible.'' Do you agree that it would have been 
incomprehensible, or do you agree that that was a mistake?
    Governor Snyder. In retrospect, you wish it would have been 
a change back. The challenge would have been funding the cost. 
It would have resulted in a water ----
    Mrs. Watson Coleman. Well, let us talk about ----
    Governor Snyder. Yes.
    Mrs. Watson Coleman. Let us talk about the cost. You had 
the money. You amassed a budget surplus. So why wouldn't you 
think that it was worthy to apply those resources in this 
situation?
    Governor Snyder. I'm sure you're quite familiar, being in 
Congress, that the chief executive, the Governor or the 
President, doesn't simply spend money. We need authorization 
from the legislature. I had no authority to do that.
    Mrs. Watson Coleman. Did you go to the legislature and ask 
for the authority at that time?
    Governor Snyder. We went--we went and got $2 million, the 
maximum grant we could, in terms of helping with water 
infrastructure in Flint.
    Chairman Chaffetz. The gentle--the gentle ----
    Mrs. Watson Coleman. You know--you know ----
    Chairman Chaffetz. The gentlewoman's time has expired.
    Mrs. Watson Coleman. Well, thank you, Mr. Chairman. Because 
the only question, the only statement I would like to make is 
that ----
    Chairman Chaffetz. The gentlewoman's time ----
    Mrs. Watson Coleman.--it seems to me that the buck stops --
--
    Chairman Chaffetz. The gentlewoman will suspend.
    Mrs. Watson Coleman.--there, and Mr. Snyder ----
    Chairman Chaffetz. The gentlewoman will suspend.
    Mrs. Watson Coleman. Mr. Chairman, I yield back.
    Chairman Chaffetz. The gentlewoman's time has expired.
    We will now recognize the gentleman from North Carolina, 
Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    To both of you, I am troubled today because of the 
testimony we had just a couple of days ago, which would 
indicate that even though there is enough blame to go around, 
there were a number of times where people acted like it wasn't 
their fault.
    Governor, your emergency management testimony from the 
witness here was troubling because he acted like, ``Well, I 
didn't know.'' And so, Governor, do you believe that there were 
people who made mistakes within your agency at multiple levels 
in terms of addressing the health and welfare of the people of 
Flint?
    Governor Snyder. Yes.
    Mr. Meadows. Okay. Thank you.
    Ms. McCarthy, I am going to ask you the same question 
because the witness that resigned indicated that there was 
nothing that they could have done differently, and there was no 
fault on her part or the part of the EPA as it related to this 
unbelievable, horrific event.
    So do you believe that the EPA is partially at fault?
    Ms. McCarthy. I believe that we could have taken different 
action and been more aggressive, yes.
    Mr. Meadows. That is not the question. Are you partially at 
fault, yes or no?
    Ms. McCarthy. I'm not playing a blame-shifting game, sir. 
It would be very easy for me ----
    Mr. Meadows. So you do agree that you are partially at 
fault.
    Ms. McCarthy.--to do that, but I won't. We--the system 
failed. We were part of that system.
    Mr. Meadows. All right. Let me go--both of them indicated 
that the rules with regards to copper and lead are somewhat 
ambiguous, that they needed a little bit more clarity. We have 
heard that. Would you agree with that, Governor?
    Governor Snyder. I would go much farther than that. It's a 
dumb and dangerous rule.
    Mr. Meadows. Okay. All right. Ms. McCarthy, would you agree 
that the rules, the current rules as they are, are ambiguous, 
need more clarification?
    Ms. McCarthy. They definitely need clarification. They need 
to be strengthened, and we're taking a look at that. But 
they're fairly clear about what should be done in this 
situation.
    Mr. Meadows. Okay. So let me stop you there because if you 
are taking a look at it, here is my concern. Because when 
anybody says there is nothing at fault, we started doing some 
research. Clean water safety, Clean Water Drinking Safety Act 
of 1991 required rules to be updated every 6 years.
    Ms. McCarthy. Yes.
    Mr. Meadows. Do you know how many times it has been updated 
fully since 1991?
    Ms. McCarthy. I don't know how many ----
    Mr. Meadows. I do. The answer is zero. Zero. In terms of 
fully updated, it is zero. It was modified slightly in 2007. 
And so here we have the safe drinking water standards that 
needed to be updated, and yet the EPA did nothing about it.
    Now I could go further to say, well, maybe the EPA didn't 
know. But we did a little research on that, too, and to quote, 
the GAO in 2006 said, indeed, that you needed to update your 
rules. Are you aware that the GAO has a problem with the copper 
and lead rules?
    Ms. McCarthy. I am aware that they were last updated in 
2007 under the prior administration.
    Mr. Meadows. Okay.
    Ms. McCarthy. That's what I'm aware of.
    Mr. Meadows. All right. So let me ask you even further 
because I went to your documents, which were actually 
regulation documents saying when you were going to update the 
rules. And so, in 2010, you said that you were going to have a 
proposed rule in 2012 and a final rule in 2013, long before 
this problem would have happened if you just had stuck with 
your original timeframe. The problem is, is I can go through 
multiple papers here, and I can find that you never--you just 
kept changing the goalpost in terms of the rules.
    And in fact, even as recent as this last fall, you changed 
it again to say that not only are you going to do a rule 
sometime in the future in 2018, you don't even talk about a 
final rule.
    Now do you not see a problem with the fact that the law 
requires you to do a new rule every 6 years, at least revisit 
it, and that you haven't revisited it in 10 years and that you 
keep changing the goalpost? Do you not see some fault there?
    Ms. McCarthy. Well, the revisions actually started in 
earnest in 2012 or 2013 ----
    Mr. Meadows. But you said--according to your own document, 
you said you were going to have them done in 2013.
    Ms. McCarthy. We have--we have a stakeholder group that's 
very actively told us that we cannot make tweaks to this. We 
have to make some substantive changes, issues that would have 
been helpful in this case.
    That does take more time than making small tweaks, and that 
is what we're working on now, and I'm glad we know even more 
today than we did before. We're going to take a look at it and 
get it done.
    Mr. Meadows. Okay. Well, let me tell you why I am concerned 
with that. In the same time about the small tweaks ----
    Ms. McCarthy. Yes.
    Mr. Meadows.--the EPA has passed 3,571 rules in that 
timeframe while the people of Flint and maybe Washington, D.C., 
are waiting on a final rule. You have the wrong priorities, Ms. 
McCarthy.
    I yield back.
    Ms. McCarthy. If they had--if they had properly implemented 
the law as it currently exists, we wouldn't be sitting here 
today. As it currently exists, we wouldn't be sitting here 
today.
    Chairman Chaffetz. But you are in charge. You are the 
Administrator.
    Ms. McCarthy. Actually, the State is in charge ----
    Chairman Chaffetz. But you are in charge of the lead and 
copper rule.
    Ms. McCarthy.--to fully implement or enforce the rule. Sir?
    Chairman Chaffetz. You are in charge of the lead--you think 
the Governor is in charge of the lead and copper rule? You are 
in charge of the lead and copper rule, writing the rule.
    Ms. McCarthy. I'm telling you that we didn't need any 
change to the rule in order to have prevented this problem from 
happening. It was the way in which MDEQ actually interpreted it 
and implemented it that was the problem.
    MDEQ has said it. The Governor's task force has said it.
    Chairman Chaffetz. You are wrong. We are going to come 
back.
    Ms. McCarthy. The State auditor ----
    Chairman Chaffetz. We are going to come back to this. Let 
us recognize the gentleman from Pennsylvania, Mr. Boyle, for 5 
minutes.
    Mr. Boyle. Thank you, Mr. Chairman.
    Governor Snyder, over the past 2 years, you and the 
individuals you handpicked to carry out your administration's 
actions missed so many opportunities along the way to protect 
the people of Flint. When the water changed color to brown and 
orange, your administration said the water was safe.
    When people reported rashes, hair loss, odor, and even 
sewage, your administration said the water was safe. When E. 
coli and fecal bacteria were found in the water and boil water 
alerts were distributed, your administration said the water was 
safe.
    When a harmful byproduct of disinfection in the water began 
to spike after the switch, your administration said the water 
was safe. When Legionnaire's disease began to infect and later 
kill numerous citizens, your administration said the water was 
safe.
    Governor, don't you have a moral responsibility to resign?
    Governor Snyder. My commitment is to fix the problem. This 
is a case where we should have demanded more answers. I said 
that in my opening statement. And again ----
    Mr. Boyle. And don't you have a moral responsibility, as 
the Governor of an administration that failed and poisoned its 
own people, don't you have the moral responsibility to resign?
    Governor Snyder. What I would say is, is when you have 
experts that you relied on, they failed. They worked for me. So 
you have a responsibility for that. I kick myself every day, 
wishing I would have demanded more answers and asked more 
questions.
    But put it in context, when something bad happens--and this 
is a terrible tragedy, this has been the humbling experience of 
my life, is ----
    Mr. Boyle. I believe for the citizens of Flint, it has been 
far worse than just a humbling experience.
    Governor Snyder. I believe the right answer is to--to walk 
away from it, I want a commitment--I'm making a commitment to 
solve this problem because ----
    Mr. Boyle. Let me ----
    Governor Snyder.--the Flint people deserve better.
    Mr. Boyle. Let me--I think that answer speaks for itself. I 
think that, ultimately, when people are at the head of a 
government, they have to take responsibility for their 
administration's failures.
    But, Ms. McCarthy, I want to switch to you because while 
this has been possibly the largest and most glaring failure of 
government since Hurricane Katrina, I am concerned about the 
extent to which this could be a canary in a coal mine. So let 
me ask you specifically about my own home State of 
Pennsylvania.
    In 2014, the Pennsylvania Department of Health identified 
18 cities in my State that have higher lead exposure than Flint 
does. So what is the EPA doing now, outside of Flint, to ensure 
that other localities don't end up in exactly the same 
situation?
    Ms. McCarthy. Well, thank you for raising that because 
that's one of the issues that has a spotlight on it. We should 
try to make something good happen of this.
    We--actually, I have written to every Governor and to every 
primacy agency, the ones that are responsible for implementing 
and enforcing the Safe Drinking Water Act, to ask them to look 
at all their protocols, to look at what their guidance is, to 
explain to them what we know they should be doing, to actually 
post their protocols, to relook and confirm to us that they're 
implementing the law as it has been intended.
    We even went further to suggest that every test they take 
should be posted on the Web. They should post every lead line 
on the Web.
    I know that people have lost faith in government as a 
result of this. The best way we can help them--in us--is to 
have everything be so transparent that individuals can hold us 
accountable.
    One of the challenges we faced here, Congressman, is we 
just couldn't get a straight answer anywhere. People don't 
deserve that out of their government. I will take 
responsibility for not pushing hard enough, but I will not take 
responsibility for causing this problem. It was not EPA at the 
helm when this happened.
    Mr. Boyle. Thank you, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Great. I know it is difficult to get 
government to work for a variety of reasons. That is why some 
of us like less government because it is very hard to get it to 
work.
    I guess my first question is for Governor Snyder. Like 
every Governor, you inherit, in your case, you said, what, over 
40,000 employees. You didn't pick those employees. Frequently, 
because of the political clout, even if you have an employee 
over a period of time who is lazy or not doing their job, it is 
difficult to get rid of those employees.
    You have gotten rid of several of them. I maybe missed a 
couple of the comments here. But in general, as you go through 
the five or six employees who you feel were most callous and 
uncaring, were they your political appointees, or were they 
civil servants who you inherited?
    Governor Snyder. Now with respect to, again, I use the 
words in quotes, Congressman, the ``experts'' that were in the 
water safety division, I believe on average, you'll find their 
experience was somewhere between 20, 20-some years to 30 years 
of government experience.
    Mr. Grothman. So, you know, you can be an expert, but if 
you don't care, doesn't matter how expert you are or how many 
classes you have taken in school. So in other words, largely, 
the people that you got rid of were people that had been around 
there for 20 years, civil service protection, that sort of 
thing?
    Governor Snyder. Yes, the head of the water division that 
was terminated had 28 years' experience.
    Mr. Grothman. I know it is very difficult for a Governor to 
come in there and clean house with civil servants, and I am 
sorry it had to be such a tragedy to bring their incompetence 
to light.
    Question for Gina McCarthy. It seems to me, before this 
hearing, the most callous Government employee we have had 
before is Susan Hedman. We found out yesterday that she 
actually had been reached out and grabbed by your predecessor, 
Secretary Jackson. I wish Secretary Jackson would be here to 
explain what in the world she was doing hiring Susan Hedman.
    But as you go through the people in your agency that have 
made huge mistakes--I don't see how you can deny they have made 
huge mistakes--could you rattle off the people who you feel are 
most responsible for this mess?
    Del Toral, he wasn't a political appointee. He was an 
example of a good civil servant, who was around there, you 
know, fighting to get the answers out here, as far as I can 
see, when Susan Hedman was trying to keep them in the dark. But 
would you rattle off the people you feel are most at fault in 
EPA?
    Ms. McCarthy. No, sir. I think that that would be one of 
the easiest things I could do is to find a couple of career 
bureaucrats to pin the problem on.
    Mr. Grothman. I don't think it is career bureaucrats.
    Ms. McCarthy. That's not my job, and I'm not going to do 
that.
    Mr. Grothman. I think it is Susan Hedman. Well, I don't 
think it was career bureaucrats. I think it is Susan Hedman. 
But go ahead.
    Ms. McCarthy. Well, Susan Hedman didn't know about this 
issue until late in June. She took immediate action. She 
actually worked--was it June or July? I forget. I apologize. 
She took immediate action to reach out. She even put a desk 
statement out that got picked up in local newspapers about the 
lead concerns. We did everything according to the numbers.
    And the reason why I am so impressed with Susan is that she 
immediately came and resigned because she could have waited to 
try to find somebody to blame it on, but instead she wanted 
full attention on Flint and the ability for EPA to help resolve 
that situation, and she resigned.
    Mr. Grothman. Wait, maybe I missed something. When did she 
resign?
    Ms. McCarthy. She resigned in late January.
    Mr. Grothman. That is not immediate.
    Ms. McCarthy. Because she was working the issue.
    Mr. Grothman. That is like after 6 months.
    Ms. McCarthy. I'm sorry, sir. She was working the issue 
every day. The question was did we have too much interaction 
with the State, trusting individuals who were not giving us the 
right information?
    Mr. Grothman. Wait a minute.
    Ms. McCarthy. But she worked really hard. In fact, it was 
Susan who forced our way onto the task force so we could be 
helpful in designing a strategy moving forward.
    Mr. Grothman. It was ----
    Ms. McCarthy. It was Susan who suggested not--to go back to 
the Detroit water. It was Susan who suggested that bottled 
water would be necessary. So she was taking the steps she 
needed to try to resolve the problem.
    Mr. Grothman. It would seem to me that if the Del Toral 
memo was made public, that would have raised the sense of 
crisis, that ----
    Ms. McCarthy. Sir, it was made public. It was public the 
day he sent it out. The only thing she was reacting to ----
    Mr. Grothman. Well, okay ----
    Ms. McCarthy.--was the fact that it was ----
    Mr. Grothman. Stood with the memo and rather than saying 
that the memo was, oh, rather than downplaying the memo, 
highlight it.
    Ms. McCarthy. Well, sir, if you look at the entire chain of 
our emails, you will see that Miguel was the person that 
everybody in that region turned to for advice on how to handle 
this. He was part of our task force. He was part of the 
decisions every step of the way.
    We in no way sidelined him. It is actually something that 
MDEQ started by saying he was some kind of a rogue employee. It 
was Susan Hedman that called MDEQ and said to stop doing that. 
That is not the case. He's part of our team and a valuable 
member.
    Mr. Grothman. I just think it is incredible that after all 
these people went through, you can't still identify any people 
who did a bad job. I mean, it just is amazing to me.
    But, okay, I am done with my time.
    Ms. McCarthy. Sir, I have asked the Office of the Inspector 
General to give their eyes on it. I can't possibly know 
everything that happened.
    Do I think the system failed? Yes. Do I think EPA could 
have been more aggressive if we knew we weren't getting the 
right information? Absolutely.
    Even when we figured that out, we talked to the State for 
too long. It should have been elevated. I would have loved to 
have an opportunity to intervene in a more aggressive way.
    Chairman Chaffetz. Well, all right. Mrs. Maloney of New 
York is now recognized for 5 minutes.
    Mrs. Maloney. Administrator McCarthy, would you please 
check on the level of lead in New York City's water and get 
back to me? And I am grateful that there are professional 
employees working for the health and to protect the health of 
the American people, and I want to thank you for the job that 
you are doing.
    Ms. McCarthy. Thank you.
    Mrs. Maloney. The people, people in Flint were drinking 
high levels of lead in their water, and Governor Snyder, you 
utterly failed in your responsibility to protect them. Earlier, 
you testified that we needed action. We needed action by the 
EPA. We needed action by the city council.
    But even after you found out that there were problems, that 
it was on paper in front of you, with your staff, once you 
knew, even when you knew, you delayed, and you put people's 
lives in danger.
    On April 25, 2015, EPA official Miguel Del Toral sent an 
email to Pat Cook at MDEQ on the State level, expressing 
concerns that no corrosion control was being used in Flint, and 
he wrote, and I quote, ``I'm worried. I'm worried that the 
whole town may have much higher lead levels than the compliance 
results indicated.''
    And I'd like his note put in the record, please.
    Mrs. Maloney. But Governor Snyder, you didn't add corrosion 
control in April. You didn't add it in May. You didn't add it 
all summer long, and you didn't add it in October. And even 
when you switched back to the Detroit water, you didn't add it 
then.
    So you never added corrosion control the entire time that 
your citizens were drinking out of the Flint River. And isn't 
that true, yes or no? Yes or no?
    Governor Snyder. In terms of your ----
    Mrs. Maloney. Yes or no? Get back to me in writing if you 
can't answer a yes or no right now.
    Governor Snyder. There should have been corrosion controls 
and common sense from day one. They were not there.
    Mrs. Maloney. Okay. They were not there, but ----
    Governor Snyder. They were there when ----
    Mrs. Maloney. Excuse me. Excuse me. I am asking the 
questions. I asked for a yes or no. Get back to me in writing, 
and I can give you a paper trail that for 6 months, you knew, 
and you didn't do anything about it.
    And EPA, it was EPA that warned you. It was EPA that warned 
the State, and I find that unconscionable. And I am asking you 
to warn me if there is any problem in the State of New York. 
Please. And I am grateful we have professionals who can do 
this, who can act, and they did act.
    Now let me turn to another delay. The October 2, 2015, you 
unveiled your so-called ``comprehensive action plan'' to 
address Flint's water crisis. But you didn't declare a state of 
emergency until January 5, 2016. Isn't that right?
    When did you--it was January 16th, and that was 3 months 
later, and I find that unconscionable. And you absolutely 
didn't call the National Guard in until even later, until 
January 12th.
    And Governor Snyder, on November 13, 2015, the Deputy State 
Director of Michigan State Police sent an email to one of your 
legal counsels with the subject line, ``Declaration 
Questions.'' He wrote, and I quote, ``As you know, the Governor 
can declare at any time for any reason a state of emergency.''
    That email was sent in November, yet you still waited 2 
more months before you declared the emergency. And how can you 
explain that to the people of Flint, who are now incredibly 
sick?
    The truth is, is that you dragged your feet because you 
didn't want to take responsibility. In fact, that very same 
email from that last November lays out clearly, it states, and 
I quote, ``The State will formally own the event if we put a 
Governor's declaration in place. This could be viewed as the 
State having owned up to how the water issue was caused.''
    And Governor Snyder, your people knew in April that you 
should be using corrosion control, but you did nothing for 6 
months. You dragged your feet in declaring an emergency, based 
on political and financial concerns. And say whatever you want, 
say whatever you want about being in the dark, about the 
warning signs, but even when you did know, even when you did 
know, you did nothing.
    So your delay sickened an untold number of additional 
people. I believe this is a national disgrace and a national 
scandal. And I think we all should learn from it.
    Chairman Chaffetz. The gentlewoman yields back. The 
gentlewoman's time has expired.
    We will now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. McCarthy, I am a freshman. I have been here for 16 
months now, and I struggle sometimes with acronyms. Can you 
help me out? EPA, what does that P stand for?
    Ms. McCarthy. Protection.
    Mr. Carter. Protection. Protection?
    Ms. McCarthy. Yes.
    Mr. Carter. I thought that was the case. So just a second 
ago, I looked up the definition of ``protection.'' It says, ``A 
person or thing that prevents someone or something from 
suffering, harm, or injury.'' You would agree with that?
    Ms. McCarthy. Yes. Sounds right.
    Mr. Carter. Sounds right. So Environmental Protection 
Agency.
    Ms. McCarthy. Correct.
    Mr. Carter. Ms. McCarthy, I am correct when I say that EPA 
has the authority to warn the public when there is 
contamination in the drinking water that poses immediate threat 
to human health. Is that correct?
    Ms. McCarthy. Yes.
    Mr. Carter. Yes. So you are aware of the June 2015 memo 
from Miguel Del Toral. You are aware of that, correct, of that 
memo?
    Ms. McCarthy. Yes.
    Mr. Carter. Yes. Okay. So Mr. Del Toral, who we have 
established, and we established it 2 days ago when Ms. Hedman 
was here, he is a drinking water specialist. In fact, he was a 
member, a key member of the Region 5 safe drinking water task 
force.
    Yet when Mr. Del Toral reported the high levels of lead in 
Flint's drinking water, the EPA, the Environmental Protection 
Agency, they didn't do that. They didn't protect the public. 
They didn't warn the public.
    Instead, Ms. Hedman, she had a bunch of excuses, none of 
them which I believe. But she had a lot of excuses as to why 
the EPA, the Environmental Protection Agency, didn't take any 
action.
    None of them would have prevented, none of them would have 
prevented EPA from standing up and saying, ``Hey, don't drink 
that water. It has got lead in it. Stop. Don't drink it.''
    None of the excuses she had would have prevented EPA from 
doing that. But EPA did not do that. They did not protect. They 
did not--they did not prevent someone or something from 
suffering, harm, or injury.
    Mrs. Maloney. Will the gentleman yield?
    Mr. Carter. I do not yield. Ms. McCarthy, you had an op-ed 
in the Washington Post.
    Ms. McCarthy. Yes.
    Mr. Carter. And you stated that EPA repeatedly and urgently 
told the State of Michigan to act with a sense of urgency and 
inform the public. Is that correct?
    Ms. McCarthy. That's correct.
    Mr. Carter. Yet as I understand it, you mean to say that 
you repeatedly told the State of Michigan to warn the public 
about the toxic levels of lead in Flint's public water, in 
their water. Is that correct?
    Ms. McCarthy. We repeatedly told them that they had to 
begin corrosion control ----
    Mr. Carter. You know, a little while ago, you asked--you 
said, you know, I wished we could have done something 
different.
    Ms. McCarthy. Yes.
    Mr. Carter. Whether it would have been by the law or 
through common sense. Would common sense not have told you, 
hey, hey, stop drinking the water?
    Ms. McCarthy. Not at that point in time.
    Mr. Carter. Not at that point in time?
    Ms. McCarthy. No. No.
    Mr. Carter. At what point in time?
    Ms. McCarthy. The challenge was that you're referencing a 
report that if you look at the final clearly indicates that it 
was most likely a localized issue. I cannot make ----
    Mr. Carter. So what Ms. Hedman did, she sought a legal 
opinion. She--well, that makes us all feel better. My goodness, 
I mean ----
    Ms. McCarthy. That's not what she did, sir.
    Mr. Carter. She did. She sought a legal opinion on this.
    Ms. McCarthy. No, it ----
    Mr. Carter. And I know everybody here feels much better 
about that because the Environmental Protection Agency, we are 
going to make sure we got a legal opinion first before we tell 
these people stop drinking that water.
    Ms. McCarthy. This report was done after we had been 
working with the State to tell them consistently that they had 
to start corrosion control. But I cannot, nor could the region, 
base the decision ----
    Mr. Carter. But corrosion, Ms. McCarthy ----
    Ms. McCarthy. Yes.
    Mr. Carter. Corrosion control.
    Ms. McCarthy. Did I say corrosion control, right?
    Mr. Carter. You did.
    Ms. McCarthy. Okay.
    Mr. Carter. Okay, but that is not what we are concerned 
about. Because at this point, we know there is lead in the 
water.
    Ms. McCarthy. Well, we knew that it was ----
    Mr. Carter. But you have got to stop it.
    Ms. McCarthy.--a localized area, and we were concerned 
about it being ----
    Mr. Carter. This didn't come from just some member. This 
came from a drinking water specialist.
    Ms. McCarthy. Yes, and his advice was heeded.
    Mr. Carter. His advice was heeded immediately?
    Ms. McCarthy. His--we did everything we have available to 
us.
    Mr. Carter. Was it heeded immediately? Everything that you 
had available to you?
    Ms. McCarthy. Yes.
    Mr. Carter. So you are telling me you got on TV and you 
said, ``Don't drink the water. There is lead in the water. 
Don't drink it.''
    Ms. McCarthy. No. Because the only thing we knew, there was 
lead in three in a very localized area. Had I made the 
assumption, using a presumption like a precautionary principle 
----
    Mr. Carter. Ms. McCarthy, I am sorry. I am not with you on 
this because, again, Environmental Protection Agency. You are 
trying to prevent someone or something from suffering harm or 
injury ----
    Ms. McCarthy. So we will --- we will look ----
    Mr. Carter. The EPA. Why don't we change the acronym? I 
mean, come on. Let us just change it to something else. Let us 
take prevention out of there.
    Ms. McCarthy. Sir, the State did give the State--the law 
did give the State primary authority.
    Mr. Carter. The law. The law.
    Ms. McCarthy. We provided advice and assistance.
    Mr. Carter. Now I don't think anybody here cares about the 
law.
    Chairman Chaffetz. The gentleman's--the gentleman's time 
has expired. The gentleman yields back.
    Mr. Carter. Thank you, Mr. Chairman.
    Chairman Chaffetz. We will now recognize the gentlewoman 
from New Mexico, Ms. Lujan Grisham, who is to your far left.
    Ms. McCarthy. Thank you.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And this is a really tough hearing for all of us, right? 
And as both sides try to tackle this problem, because our real 
issue here is to figure out how we prevent it from happening 
ever again and, secondly, what we can do about restoring faith 
to the--our constituents who don't believe either of you. 
Right? And there is plenty of reason for them not to believe 
either of you.
    Now, Governor, I worked for three Governors. I was--those 
Governors were just as lucky as I was as their appointee. Two 
different parties, 17 years, and I will tell you what. I got 
plenty of emails and calls from Governors who told me to light 
a fire in my department and move quickly to address problems. 
So I am having trouble with ``I wasn't really sure.''
    And I will tell you, as a Member of Congress, when there 
was a veterans wait list, my hospital said, ``We don't have 
that.'' I didn't believe them. I was right. I went down there 
and got it myself.
    When our Social Security office, I was having millions of 
complaints--that might be a bit of exaggeration--but thousands. 
The Social Security office told me everything was fine. So I 
went down there and got in line. It wasn't fine. They were 
harming people. All right?
    You have an obligation, the both of you. But Governor, 
particularly you, because these are constituents in your 
control with your cabinet. I was the health secretary. When we 
had any alert, we got on it.
    You said you were the common sense Governor in your 
campaign. When you knew in the fall of 2014 that you had fecal 
coliform was detected in the Flint water, there were boiled 
water alerts, what caused you with everything else that you saw 
in the press, in addition to your own staff, not to have a 
common sense approach and just fix it? Because I don't 
understand.
    Governor Snyder. That issue did get resolved in terms of 
the E. coli issue. Again, this is where you look back in 
hindsight. Again, I wish we would have asked a lot harder 
questions.
    Dan Wyant, the head of the department ----
    Ms. Lujan Grisham. So what are we going to do with 
Governors in your situation? Because if they say later, ``I 
wish I had done more. You know what? There were warning signs. 
We did a little, but not enough.''
    And the same, the same with the Federal Government. What do 
we do so that everybody sitting here today is clear that when 
there is a warning signal, no matter how small--and here, they 
weren't small. They were not small. They were huge.
    Then what do we do as policymakers to make sure that my 
constituents in my State and all over the country who have 
similar issues that are ready to have the same consequences, 
that they are going to believe their State officials and their 
elected officials and their appointees? Because that is really 
what I want to do going forward. How do I do that, sir?
    Governor Snyder. In my ``state of the State'' address, I 
stood up and said these were failures. We need that urgency. I 
demand that people bring me these issues. And in terms of 
issues like Flint, getting daily updates ----
    Ms. Lujan Grisham. How many staff have been held 
accountable? How many retrainings have you had? How many water 
tests are you doing? Look, I got a jet fuel problem in my 
district. Everybody was working on it.
    Well, that isn't enough. I went to the Pentagon. Now they 
are actually pulling it out of the water and treating it. I 
mean out of the aquifer. Because I am not a jet fuel expert, 
but I am pretty sure it shouldn't be in my drinking supply.
    So for 15 years, bureaucrats and other leaders just let it 
sit there while they studied it. So what exactly, give me a 
list of the things that you are doing right now to address 
these constituents who have been actually harmed, who could be 
harmed, every water system in your State. How much money have 
you identified and appropriated to make sure that you are 
dealing with it productively?
    Governor Snyder. One of the things included in your 
exhibits is actually an excerpt from a report that I helped 
create, and we track information on Flint on a daily basis that 
gets aggregated. It talks about every active water customer. It 
talks about how many ----
    Ms. Lujan Grisham. So tell me the constituents that you 
responded to based on that report.
    Governor Snyder. The constituents? We're out to talk to 
every person in Flint in terms of getting their water.
    Ms. Lujan Grisham. You are talking to them?
    Governor Snyder. In terms of a visit to their home ----
    Ms. Lujan Grisham. So that is your response to date is to 
know who is affected maybe by your report ----
    Governor Snyder. No.
    Ms. Lujan Grisham.--and then to talk to them?
    Governor Snyder. Not maybe. It's to go to their homes to 
actually have an opportunity to ask would you like a filter? 
Would you like a water test? How can we help support you in 
terms of getting water? Again, we haven't hit every home, but 
we're actually tracking people in terms of detail.
    Ms. Lujan Grisham. So let me ask you this question. I think 
that is not--and this is my opinion as someone who does this 
kind of work for my whole career, we would just fix the water 
system so that it is all safe. But what do you do with someone 
like my mom, who has got a cognitive impairment, and you go to 
her house, and you ask her? What about that constituent?
    Governor Snyder. We ask them to dial 211 or get in contact 
so we can help bring water to them.
    Ms. Lujan Grisham. I think I have my answer, sir. I don't.
    Chairman Chaffetz. The gentlewoman's time has expired.
    We will now recognize the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Governor Snyder, I think everyone should 
respect the apology that you have offered because I believe 
that everyone realizes there were mistakes made at every level 
here, local--the local level, the State level, the Federal 
level. I think, sir, you have accepted far more blame for this 
problem than you deserve.
    I can tell you that several years ago in another committee, 
I chaired the Water Resources and Environment Subcommittee for 
6 years, and I traveled all over this country. And I can assure 
you that this is a problem with our clean water and waste water 
infrastructure that has been building up for many, many years.
    Many of the systems in the Northeast and Midwest are 75 or 
100 years old, and this is--and where it is especially acute is 
in the people have been moving for many years from the high-
tech States to the low-tech States, and they have been moving, 
I understand that Flint's population was 193,000 in 1970, and 
now it is 99,000. And what has, unfortunately, happened, not 
just in Flint, but in many cities, the higher-income people 
have been the first ones to move, and it has left these cities 
with not enough money to do all the things that they need to 
do.
    And then I personally have hated to see and have spoken out 
for years against the fact that we have spent trillions over 
the last 15 years in a failed effort to rebuild the Middle 
East, and we haven't done enough for our own country.
    But do you realize, sir, that this is a problem, very 
longstanding, that was there long before you took office?
    Governor Snyder. In terms of we have a number of urban and 
actually rural areas that have major challenges, and that's why 
I've tried to work hard to improve those places. And again, 
that's in short of things getting such as Healthy Michigan to 
get healthcare to people, in terms of Healthy Kids Dental, a 
program to bring dental care, in terms of Pathways to 
Potential, a program where we put caseworkers in the local 
schools.
    Great Start is a program we have to complement Head Start, 
where we're bringing opportunities for preschool to kids all 
over Michigan. We created Community Ventures, a program where 
we've put over 400 and some people in permanent jobs in Flint 
in terms of people that were structurally unemployed because 
the Federal programs weren't doing enough.
    We're going to add to that, to go to supplement that is we 
need programs like Early On to help kids when they're born to 
get an assessment of where they're at, to do developmental 
childhood. These are all the kind of programs. I appreciate 
your comment. Some of these are in response to lead. Many of 
these we were doing.
    But the thing is, is let's do things here that not only can 
help mitigate the lead. We can't take that back, but we can do 
every mitigation we can. But it can also help with other issues 
so we can create an environment for success in these 
communities.
    Mr. Duncan. Let me mention one other thing.
    Governor Snyder. Yes.
    Mr. Duncan. You mentioned the, what was it, $267 million or 
some figure?
    Governor Snyder. Two hundred thirty-two.
    Mr. Duncan. Two hundred thirty-two million. My guess is, is 
that there is very few cities anywhere around the size of Flint 
that are getting that kind of money or that kind of attention 
to their systems, and I am glad that it is happening.
    But before my time runs out, I do want to say that I chair 
now in this Congress the Clean Water Caucus, and we have been--
everybody has been trying to bend over backwards to place blame 
someplace or another. And as I said, there are many people who 
should be accepting responsibility for this other than you.
    But there are two bills that I have, H.R. 499, which is the 
Sustainable Water Infrastructure Investment Act, and H.R. 4468, 
the Water Infrastructure Trust Fund Act, to set up a trust fund 
for waste water and clean water systems. If people want to do 
more than just place blame, but if they want to actually try to 
do something to help not just Flint, but cities all over this 
country, then I would appreciate if they would talk to me about 
these bills.
    I yield the balance of my time to the chairman.
    Chairman Chaffetz. I think we will go to the next speaker 
unless you have something else?
    Mr. Duncan. That is all right.
    Chairman Chaffetz. Given the time, the gentleman yields 
back.
    We will recognize the gentleman from Vermont, Mr. Welch.
    Mr. Welch. Thank you very much.
    I thank the Administrator for being here. I thank you, 
Governor, for being here.
    You are witnessing the kind of usual scene here in 
Washington, where we are trying to figure out who to blame the 
most. But we have got a real problem. We have got a real 
problem, and Governor, obviously, you have got major 
responsibility. And I want to focus on the solution.
    I mean, a lot of Governors, I think if they had this 
problem, they would be out there digging trenches and replacing 
pipes. You have requested from the Michigan legislature a 
little over $200 million. Is that correct?
    Governor Snyder. Yes, $232 million, $67 million of which 
has already been appropriated.
    Mr. Welch. All right. So you have got $67 million. Now is 
it the intention in using this money, in addition to dealing 
with infrastructure issues, to address the health needs of 
these children who have been permanently injured as a result of 
ingesting lead in the water?
    Governor Snyder. Absolutely.
    Mr. Welch. Explain to me what the plan is for mental 
health. Explain to me what the plan is for cognitive 
disabilities. Explain to me what the plan is for daycare. 
Explain to me what the plan is to assist these parents whose 
kids are in their arms, are not whole like they would be, whose 
future is compromised, and these parents, in the midst of 
contending with this, have to figure out how to go work when 
their kids need them at home.
    So my question is if you acknowledge that those are real 
issues as a result of ingesting the lead, what in the $238 
million is going to address those ongoing needs?
    Governor Snyder. Yeah. And Congressman, what I'd say is 
it's worse than you stated it, in my view. I appreciate all the 
things, but ----
    Mr. Welch. Yes, I didn't ask ----
    Governor Snyder.--in terms of what we're doing, in terms of 
physical, social, and educational well-being, of the $232 
million, $63 million is identified that, and the programs break 
down as follows. And I apologize, the time limits. Early On is 
a program to help kids from birth, essentially, to have 
assessments a couple times a year and then have intensive 
follow-on services to the degree the assessments identify 
issues. We're talking about adding developmental childcare to 
help kids beyond that point.
    Mr. Welch. I am going to interrupt. I appreciate it. I only 
have 5 minutes.
    Governor Snyder. I'm sorry. I thought you asked me to 
answer ----
    Mr. Welch. No, I did. And I am going to let--you can submit 
that in writing.
    Governor Snyder. Okay.
    Mr. Welch. But here is the apprehension I have. I am a 
parent, and you have got these programs you just announced. I 
am trying to figure out today what I do tomorrow. And who does 
the parent call when things aren't working out? Who does the 
parent call when they are late for work because their child is 
having an episode? You know, will there be somebody answering 
the phone?
    Governor Snyder. My commitment is to get a long-term 
solution to this.
    Mr. Welch. All right. So let me ask you this. You have got 
about $1 billion in Michigan from--partly from a rainy day 
fund, right, and partly ----
    Governor Snyder. No, it's about $600 million, but it is a 
significant amount of money.
    Mr. Welch. In the rainy day fund?
    Governor Snyder. Yes.
    Mr. Welch. And then you have some money from your surplus?
    Governor Snyder. That money is also being identified for 
the State water infrastructure fund.
    Mr. Welch. All right. Let me ask you this. Let us say that 
when your own assessment reaches the conclusion that to meet 
those needs that you have acknowledged--I described them, and 
you said my description didn't actually fully state how bad it 
really is. If new revenue is required to meet the obligations 
to these young children years from now that your assessment 
shows today that money will be needed, and it requires you to 
promote revenue-raising measures in order to get it, would you 
do that?
    Governor Snyder. What we're doing already is we've 
identified ongoing dollars that we think are appropriate to 
cover the cost of those programs. But to go to your point, one 
of the things in particular I have in that appropriation is a 
$50 million reserve. Because it's too soon to tell all these 
things.
    Mr. Welch. Yes, but you have asked for $238 million. We 
don't know what it is going to cost. We just don't know. We are 
in the wild blue yonder here. You don't know. We don't know. 
Let us be fair. None of us really know.
    And you wish, and I am sure as we all wish, this didn't 
happen. But there is an open-ended problem where we are going 
to be hemorrhaging lives and futures unless we really double 
down now. And what assurance would I have as a parent that 
those future and even unknown needs are going to be met if I 
don't have a State through its Governor saying whatever it 
takes, we are going to be there?
    Governor Snyder. Well, that's why I've made a commitment to 
get these resources to start these programs with significant 
reserves to say we will learn more. I appreciate your comment.
    Mr. Welch. All right. One other--one other question. You 
know, I actually buy into the argument that a lot of my 
Republican colleagues make about local control. I think the 
more things are done at the local level, the better.
    But the request now and your request is the $750 million 
from the Federal Government ----
    Chairman Chaffetz. The gentleman's time has ----
    Mr. Welch. Okay. I appreciate the indulgence.
    Chairman Chaffetz. Okay. The gentleman's time has expired.
    Mr. Welch. Yield back. Thank you.
    Chairman Chaffetz. Members are advised that there is a vote 
on the floor, but it is in the intention of the chair to 
continue the hearing until its conclusion. Both of these people 
have a lot of things to do rather than wait around for us to 
continue to vote.
    So Members will have to make a choice, and we will continue 
until we have run through the questioning.
    We will now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    And Governor, one of my favorite quotes from Justice 
Brandeis is a familiar one that he said that the cure for what 
ails government is frequently sunshine. So my comments are 
consistent with that. And if you could be brief so that I won't 
have to interrupt you, I would appreciate that.
    So, as you know, the committee has requested copies of all 
your records relating to the Flint water crisis. And this week, 
your attorney told our committee staff that you deleted 
personally many of your emails. He also said you only started 
preserving emails in April of 2013 when a litigation hold was 
placed on your account. Is that true, and have you ever 
acknowledged that previously in public?
    Governor Snyder. I hope that would have been corrected 
because that's not accurate.
    Mr. DeSaulnier. All right. In your ``state of the State'' 
address, you committed only to releasing emails from 2014 and 
'15. Have you committed since then to release the emails from 
2013?
    Governor Snyder. I'm releasing my personal emails related 
to this going back to 2011. We're releasing executive office 
emails, and we're going through the process of departmental 
emails. So far, we've got 43,120 pages up on the Web of 
documents.
    Mr. DeSaulnier. Okay. And in terms of the timeline, the 
switch to the Flint River, of course, was in March of 2013. 
That was a month before you stopped deleting your emails. So 
the question is have you directed any of your staff, given what 
you just said, to search backup files for any Flint-related 
emails prior to April of 2013?
    Governor Snyder. Again, Congressman, I thought I mentioned 
and I thought I communicated that that belief you had about the 
deletion was inaccurate.
    Mr. DeSaulnier. All right. Just want to see if we are being 
consistent. I am not an attorney. So you don't have to worry 
about that.
    Last week, your lawyer sent us a letter with the first set 
of documents. He explained that these documents were blacked 
out or redacted for a variety of reasons, and there are a lot 
of redactions.
    For example, and I think we have a copy of what you sent us 
or your attorney sent us. There is a document entitled 
``Governor Rick Snyder, November 6, 2015,'' your weekend 
briefing. It includes a line about Flint water, and then 49 
pages of redactions. Is there a reason, as far as you can 
remember, why there were 49 pages of redactions?
    Governor Snyder. Again, I didn't review this specific one. 
Those would have been issues other than Flint.
    Mr. DeSaulnier. Okay. Would you--would you release that 
information, the redactions then to the committee staff, as we 
often ask for people to release their information?
    Governor Snyder. To the degree you have that request, I'm 
happy to go through the process of reviewing it. One of the 
challenges in particular with much of this information, there 
is personal, confidential information that if we were release, 
it would create liability for the State.
    Mr. DeSaulnier. Mm-hmm. So you make a commitment to release 
those things that aren't personally liable ----
    Governor Snyder. Again, there is a series of those issues, 
in addition to legal matters, that we need to be careful about. 
I'm happy to have the discussion.
    Mr. DeSaulnier. Okay. Have you--and there is also an issue 
from our committee staff about campaign-related emails. Are you 
also willing to share those emails with us? Because some of 
them were concerned also overlapped in terms of information 
about what you were doing on Flint.
    So you have your email in your Governor's office that you 
personally manage and then campaign related.
    Governor Snyder. It wasn't anything related, per se. It was 
an account originally created for my campaign, and I do some 
personal emails in. And I believe we've already posted much of 
that information on the Web.
    Mr. DeSaulnier. Okay. As long as you are willing to share 
what the committee has asked you for, and if you could explain 
to us why you could not specifically on both accounts, that 
would be helpful.
    And then we have asked your current and former staff to 
search their personal emails. Are you willing to--in terms of 
their relationship to this issue. Are you willing to share that 
with our staff?
    Governor Snyder. Again, I believe we've already done a lot 
of work on their government emails. I would have to look into 
the issue with respect to their personal emails.
    Mr. DeSaulnier. Okay. And regards to, the last question, 
texting. Texting, are you equally willing to share that with 
the staff?
    Governor Snyder. I believe people are already making those 
reviews.
    Mr. DeSaulnier. And just a comment, and this is all due 
respect to EPA, but in California, with all due respect and we 
have great regional administrators in Region 9, and I have had 
the pleasure to work with them. It is sort of hard to--I mean, 
we look at EPA in California as a threshold.
    We are proud of the fact that we go beyond that. And this 
is decades of both Republican and Democratic administrations. 
So forgive me politically, but it seems as if, for people who, 
as Mr. Welch said, believe in States' rights and local control, 
you would be more willing to accept both responsibility when 
you slipped up.
    And it just seems in terms of this finger pointing, I know 
in California, we would be very embarrassed, of course, in any 
of these kind of situation, and you have acknowledged that. But 
our threshold would be the California threshold, not the EPA 
threshold.
    Do you have any comment on that? Governor Snyder?
    Governor Snyder. Oh, again ----
    Mr. DeSaulnier. I mean, it seems as if we are working for 
State rights, but when--when you fail, from my perspective, 
then the responsibility is the Federal Government. But when you 
do well, it is because the State has done well.
    So there seems to be a disconnect here from my perspective.
    Governor Snyder. Congressman, if you'd like, I'd be happy 
to provide a copy of my ``state of the State'' address, where I 
stood in front of the entire State of Michigan and talked about 
this failure and how I apologized. I was sorry, and I'm going 
to fix it.
    Mr. DeSaulnier. I understand. Sir, I appreciate that.
    Governor Snyder. So I've been very clear about accepting 
responsibility for the people that work for me, for the so-
called experts that created this crisis that is a terrible 
tragedy that never should have happened.
    Mr. DeSaulnier. Agreed.
    Governor Snyder. And I want to make sure it never happens 
again, and I want to take care of the people of Flint.
    Mr. DeSaulnier. Agreed. And we also have to accept 
accountability.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize myself, and I will not close this 
hearing until Mr. Cummings has equal time as well.
    But let me go to Administrator McCarthy. The lead and 
copper rule requires you by law to update it every 6 years, but 
you did not do that. Correct?
    Ms. McCarthy. It actually requires us to review it every 6 
years to see if it needs to be updated.
    Chairman Chaffetz. You don't believe that it is required 
under law to actually update it?
    Ms. McCarthy. There are many laws that ----
    Chairman Chaffetz. You are just supposed to look at it?
    Ms. McCarthy. No, sir. We were actively looking at this. We 
are actively looking at this rule. It is very challenging ----
    Chairman Chaffetz. But you said it is ----
    Ms. McCarthy.--if you want to do a substantive revision to 
it.
    Chairman Chaffetz. Well ----
    Ms. McCarthy. If you want to do what the last 
administration did, just tweak it a bit, it doesn't take that 
long.
    Chairman Chaffetz. Don't blame the Bush administration. You 
have been in office for more than 7 years now. So you said, in 
your own words, that you were going to have this new rule out 
in 2013. Correct?
    Ms. McCarthy. I'm really not aware of that, sir. I know 
that the schedule that I'm aware of is a 2017 schedule.
    Chairman Chaffetz. You mean the 2018 is what we heard 
testimony on.
    Ms. McCarthy. Well, the draft would be out in 2017. That's 
what I'm aware of, my timeline.
    Chairman Chaffetz. See, this is--this is what is so 
frustrating. You have somebody like an expert like Marc Edwards 
come and tell us there are so many ways around this and there 
is so much confusion. Do you believe there is any confusion 
about the lead and copper rule?
    Ms. McCarthy. I do believe that it can be strengthened, and 
I do believe there were weaknesses ----
    Chairman Chaffetz. No, no, no. That is not what I asked, 
strengthened. I am asking if you think there is any confusion.
    Ms. McCarthy. Well, I believe there probably is confusion. 
I'm not the one on the receiving end of it, but we work to 
clarify that whenever anyone has ----
    Chairman Chaffetz. You are the Administrator. What do you 
mean, you are not on the receiving end of it?
    Ms. McCarthy. Well, I meant because we manage the program. 
The States do the implementation, and they do the enforcement. 
And in this case, we were very clear to them what their 
responsibility was under the existing law. So while I 
understand we should strengthen the law, I agree ----
    Chairman Chaffetz. So when--when ----
    Ms. McCarthy. We had what we needed in place to prevent 
this from happening.
    Chairman Chaffetz. Really? But then why did it happen?
    Ms. McCarthy. Because the State didn't implement and 
enforce appropriately.
    Chairman Chaffetz. So you sent Miguel Del Toral in February 
2015 out to go do the testing.
    Ms. McCarthy. That wasn't for a lead and copper rule 
testing. That was a testing for an individual in their home, 
which ended up being three houses where there was a localized 
problem. I did not have information until July 21st that there 
was a systemic problem with that system. Yet as soon as we knew 
there was any problem in three houses, we told them to start 
doing ----
    Chairman Chaffetz. No, you didn't. No, you didn't.
    Ms. McCarthy.--the proper treatment.
    Chairman Chaffetz. No, because ----
    Ms. McCarthy. I'm sorry. We did.
    Chairman Chaffetz. But the timeline is such that Miguel Del 
Toral goes, does the testing.
    Ms. McCarthy. Yes.
    Chairman Chaffetz. The report gets leaked, which he feels 
he was reprimanded for. It gets released. The Mayor calls the 
EPA, Susan Hedman, and says is this report true? Should I be 
worried? The answer is, no, you have nothing to worry about. 
And the Mayor went on television--we played it before this 
committee--and says it is safe to drink the water.
    Ms. McCarthy. Sir, I think I tried to explain that Susan 
did not dismiss the substance of the report. She indicated that 
it was interim, the data hadn't been quality controlled, and it 
wasn't leaked. It was actually sent out. It was in the 
newspapers.
    Chairman Chaffetz. That is not ----
    Ms. McCarthy. I mean, so the information was available.
    Chairman Chaffetz. I know it was in the newspapers, and the 
ACLU was pushing on it, and the person's home that you came to, 
it was out there.
    Ms. McCarthy. And when in April ----
    Chairman Chaffetz. So why--why--why do the testing if you 
are just going to simply blame the State? I mean, there is no 
doubt and the Governor has admitted that the people and the 
information that were happening from the career bureaucrats at 
the Department of Environmental Quality got it wrong.
    But let me read to you this. This is you said they did 
everything, that you immediately wanted to have everything done 
on the corrosion control. Correct?
    Ms. McCarthy. I said by starting April 24th, when we 
realized that they were not doing corrosion control, we told 
them under the current law they should do it.
    Chairman Chaffetz. Okay. Well, I am going to enter into the 
record an email. Who is Jennifer Crooks?
    Ms. McCarthy. She is one of our staff people, our managers 
in the water program in the region.
    Chairman Chaffetz. Is she competent?
    Ms. McCarthy. As far as I know. I don't know her 
personally.
    Chairman Chaffetz. Okay. Well, on July 1st, she sends, and 
there are a lot of DEQ personnel on here, and I am going to 
read part of what she says. You just said that you told them to 
introduce the corrosion control in April.
    This is what she wrote to the Department of Environmental 
Quality. ``The idea to ask Flint to simply add phosphate may be 
premature. There are many other issues and factors that must be 
taken into account, which would require a comprehensive look at 
the water quality and the system before any treatment 
recommendations can and should be made.''
    Ms. McCarthy. Then let me explain that, if you wouldn't 
mind?
    Chairman Chaffetz. Sure.
    Ms. McCarthy. Because that actual advice came from Miguel. 
Because when I say you need to do treatment, it does not mean 
that I have a switch to turn on. He indicated that the agency 
didn't have the full water quality data. That's when we 
demanded and offered and begged to be on their technical 
advisory ----
    Chairman Chaffetz. You were. This was a conference--it was 
a summary of the conference call between DEQ and the EPA.
    Ms. McCarthy. No, there was a Flint technical advisory 
committee ----
    Chairman Chaffetz. What do you mean, no?
    Ms. McCarthy. I'm sorry.
    Chairman Chaffetz. Look, the public can look at this for 
themselves.
    Ms. McCarthy. Okay. But it was not as easy as flipping a 
switch. It did not mean that they didn't need to require to do 
it. The question was whether we were going to be premature and 
how best to get that done ----
    Chairman Chaffetz. No, what you did is you came here and 
you blamed solely the State. And I am here to tell you the 
State has a big part of this blame. I am not trying to excuse 
them whatsoever. But you are trying to excuse everything from 
the EPA saying you told them to put phosphates in the water, 
and they didn't.
    Ms. McCarthy. Sir, I'm not trying to shift blame ----
    Chairman Chaffetz. The documents--no.
    Ms. McCarthy.--I'm trying to get facts on the record.
    Chairman Chaffetz. Wait until I am done asking you the 
question. The documentation says that you actually had a 
conference call from the EPA telling DEQ to not do it yet.
    Ms. McCarthy. No, we were telling them that they had to do 
corrosion control. The method and treatment depended on experts 
to tell them how to do it. We offered that consistently from 
March on ----
    Chairman Chaffetz. What did you tell them?
    Ms. McCarthy.--and they actually never even took us up on 
it until September.
    Chairman Chaffetz. That is not true. I am going to enter 
into the record, we entered this before, November 3rd. Who is 
Peter Grevatt?
    Ms. McCarthy. He is the manager, our drinking water office 
in headquarters.
    Chairman Chaffetz. Yes, he is the Washington, D.C., expert. 
Here is what he wrote, okay? This is November 3rd. ``It 
appears--it appears there are different possible 
interpretations of the lead and copper rule with respect to how 
the rule's optimal corrosion control treatment procedures apply 
to this situation, which may have led to some uncertainty with 
respect to the Flint water system.''
    So here you have a city who is begging for help. They know 
they are in trouble, okay? They are asking for that help, and I 
have got email after email from the Environmental Protection 
Agency saying, you know what, maybe you should hold off because 
we are not sure. Maybe there is confusion under the lead and 
copper rule. Maybe we are supposed to do 6 months of testing.
    I am not excusing them at all, but you need to take some 
responsibility because you screwed up and messed up 100,000 
people's lives, 100,000 of them. Ten thousand of those people 
are 6 years old and younger.
    And you take no responsibility. You don't think you did 
anything wrong, right? You don't think there is anybody did 
anything wrong.
    Ms. McCarthy. I already indicated that we could have worked 
more aggressively. I wish we had.
    Chairman Chaffetz. Yes.
    Ms. McCarthy. Can I explain the memo? Would you like me to?
    Chairman Chaffetz. I want you to have an appreciation and 
an understanding of why the DEQ people are confused by the 
direction from the Department of Environmental--from the EPA.
    Ms. McCarthy. There was no confusing signal sent from the 
agency during this period of time.
    Chairman Chaffetz. What were they supposed to do? Should 
they have put the phosphates in the water, yes or no?
    Ms. McCarthy. Not dumping it in without connecting with the 
experts, and they did not have the expert voice at the table 
because they refused to let us to the table.
    Chairman Chaffetz. They were at the table. This comes from 
the EPA.
    Ms. McCarthy. That is not--sir, I'm sorry.
    Chairman Chaffetz. She starts the email ----
    Ms. McCarthy. That is not the task force we're talking 
about to provide technical expert.
    Chairman Chaffetz. Okay. Okay, let us go through the list. 
Liane Smith, Richard Benzie, Kris Phillip, Carrie Monosmith, 
Dana--I am going to mispronounce their last name ----
    Ms. McCarthy. It's okay. I don't ----
    Chairman Chaffetz. Going through this. Hold on.
    Ms. McCarthy. I don't know those individuals. So ----
    Chairman Chaffetz. Yes, they all work for you. And the EPA 
----
    Governor Snyder. Some of them work for the State.
    Chairman Chaffetz.--here is what it says. Here is what it 
says. I am sorry, DEQ. But from the EPA--thank you, Governor. 
The Governor knows who works for him.
    ``Below are my draft notes from our call last week. Thank 
you all for participating. I apologize --'' first apology I 
have seen--``for the delay in getting out this draft for you to 
all review.''
    And it says don't simply add the phosphates. Can you--I 
only want you to acknowledge is that there should be some ----
    Ms. McCarthy. Because it could have created more damage 
than it cured.
    Chairman Chaffetz. Exactly. Exactly.
    Ms. McCarthy. Water systems are difficult and deserve 
technical experts, which they did not have available. We did. 
They wouldn't let them at the table.
    Chairman Chaffetz. They were at the table. They were in the 
same conversation.
    Ms. McCarthy. That is not the table. That is a semi-annual 
call we have with the department where we share information. If 
you look through the record, we consistently said we have 
national experts. We want to help. We had worked behind the 
scenes to figure out how we could do that. We just never got 
invited, nor were we accepted at the table at this point.
    Chairman Chaffetz. Okay, I am going to go through my last 
point, and then we will get to Mr. Clay here.
    You said you didn't have the authority to do. I want to 
read to you part of the law here, okay? This is Section 1431, 
Part (d). Part (d), Section 1431 of the emergency powers within 
the Safe Drinking Water Act. It says, ``The Administrator --'' 
That would be you.
    Ms. McCarthy. Yes.
    Chairman Chaffetz. ``-- upon receipt of information that a 
contaminant, which is present in or likely to enter a public 
water system,'' and I am skipping ahead because it qualifies 
for terrorist attacks and all those types of things, ``which 
may present an imminent and substantial endangerment to the 
health of persons and that appropriate State and local 
authorities have not acted to protect the health of such 
persons, may take such actions as he may deem necessary in 
order to protect the health of such persons.''
    So if they weren't doing what you wanted them to do, why 
didn't you take action earlier?
    Ms. McCarthy. You know, I'm surprised, Mr. Chairman, the 
second part is about States' rights, and what we have to do --
--
    Chairman Chaffetz. What do you mean, the second part?
    Ms. McCarthy. There is a two-part process to us actually 
issuing a 1431. The second is we need to make sure that the 
States aren't already taking appropriate action. That's what's 
so infuriating about ----
    Chairman Chaffetz. So when did you know that they didn't do 
it?
    Ms. McCarthy. We knew July 21st that there was a systemic 
problem. The State agreed the next day, and then all they did 
was slow-walk it. That's why we had to do it the way we did. I 
wished we had gone further. I wish we had gone farther. I wish 
we had yelled from the treetops.
    But there is no way that my agency created this problem or 
there was ambiguity in the existing law that wouldn't have done 
the same thing that the Governor said, which was let them know, 
use your common sense, don't put people at risk, just because 
we couldn't figure out that in the life of us, in our guidance, 
we never thought that anybody would go from a treated system to 
an untreated system and not treat it.
    I didn't think we ever had to say that because I never 
thought anyone would. That's where we are today.
    Chairman Chaffetz. You can't have it both ways. You can't 
have people on the ground testing it, people like Miguel Del 
Toral doing the types of tests ----
    Ms. McCarthy. That wasn't ----
    Chairman Chaffetz.--sending up the warning flags. No, 
sending up the warning flags, and then not acting.
    Ms. McCarthy. Okay, sir.
    Chairman Chaffetz. I have gone way past my time. We will 
recognize the gentleman from Missouri, Mr. Clay.
    Mr. Clay. Thank you. Thank you, Mr. Chair.
    You know, I have to hand it to my Republican colleagues. 
They are actually making their argument with a straight face. 
You know, just to be clear, Republicans here today are claiming 
that the EPA, the Obama EPA should have been more aggressive in 
stepping in, seizing control, and overruling the Republican-
controlled State of Michigan.
    They are just outraged that EPA wasn't more assertive with 
Michigan and didn't immediately go public with their complaints 
about the State's failure to follow the law. Ms. McCarthy, the 
irony is almost overwhelming, isn't it?
    Ms. McCarthy. Yes.
    Mr. Clay. And Republicans have been absolutely slamming the 
EPA for overreaching at every possible turn. Now they criticize 
the EPA for not doing more when Governor Snyder fell down on 
the job. You know, let us go through some of these ridiculous 
Republican statements.
    Donald Trump has called for entirely eliminating the EPA 
and handing power over to the State. He said this, and I quote, 
``Environmental protection, we waste all of this money. We are 
going to bring that back to the States. We are going to cut 
many of the agencies. We will balance our budget, and we will 
be dynamic again.''
    Ms. McCarthy, the EPA did ultimately step in here because 
Michigan was not doing their job, and if you have been 
criticized for not stepping in sooner--and you have been 
criticized for not stepping in sooner, right?
    Ms. McCarthy. Yes.
    Mr. Clay. Another Republican candidate, Senator Ted Cruz, 
agrees with Donald Trump. He said this, and I quote, ``I think 
States should press back using every tool they have 
available.''
    Were you aware of this statement?
    Ms. McCarthy. Yes.
    Mr. Clay. Marco Rubio, now former Republican candidate, has 
vowed to scale back the Clean Water Act. He said this, 
``Regulations in this country are out of control, especially 
the employment prevention agency, the EPA.''
    Ms. McCarthy, that was a dig at you, right?
    Ms. McCarthy. Yes.
    Mr. Clay. Saying that ensuring clean water costs too many 
jobs. Is that right?
    Ms. McCarthy. That's how I would read it, sir.
    Mr. Clay. You know, there are many more Republican 
statements like this. Republican Governor Scott Walker, 
Wisconsin, has proposed converting the EPA into, and I quote, 
``an umbrella organization that really is limited to mediating 
interstate conflicts.''
    Senator Joni Ernst of Iowa said this, ``Let us shut down 
the Federal EPA and focus on those issues where here in the 
State, where the State knows best how to protect resources.'' 
What about the State protecting people?
    Ms. McCarthy, obviously, the State of Michigan did not know 
best in this case. They poisoned thousands of their own people. 
Is that correct?
    Ms. McCarthy. They did not do their job, yes.
    Mr. Clay. You know, House Republicans, including those in 
this committee, have voted at every turn to gut the EPA's 
authority to enforce the Clean Air Act, the Clean Water Act, 
the National Environmental Policy Act, and the list goes on. 
You know, despite all these Republican statements that EPA 
should be eliminated and that it overreaches, the main 
criticism of Republicans here today is that the EPA was not 
more aggressive in swooping into the State of Michigan.
    What do you think, Governor Snyder? Was the EPA aggressive 
enough?
    Governor Snyder. Congressman, the way I view it is I don't 
want to get into finger pointing and blame. The State of 
Michigan, people that worked for me that were the experts made 
a mistake. They made a huge, tragic mistake in terms of going 
over to the Flint River.
    They called for two 6-month studies to determine optimizing 
corrosion controls. That was not a good answer. Technically, 
they believe--I believe they believed they were doing the right 
thing. To put it in context, where is the common sense? Where 
is the urgency?
    Because we were on Detroit water before, which had 
corrosion controls in it. Isn't it common sense you should also 
have them in the water you have coming in?
    Mr. Clay. Before my time runs out, what do we do now? What 
about--yes, I know they are talking about changing the pipes 
and the lead and all of that, getting that out of there. What 
do we do for the people who have been impacted negatively? Do 
we have a plan? Do you have a plan, as the State of Michigan?
    Governor Snyder. Yes, sir.
    Mr. Clay. What is it?
    Governor Snyder. And we're implementing it.
    Mr. Clay. What is it?
    Governor Snyder. It begins by we've had $67 million in 
appropriations so far, and we're requesting $232 million in 
total, and it's involving water, water infrastructure, food and 
nutrition because that's one of the critical elements needed, 
physical and social well-being and educational programs.
    Mr. Clay. Does it include early childhood development ----
    Governor Snyder. Absolutely ----
    Mr. Clay.--because those are the ones that are impacted the 
most?
    Governor Snyder. Under 6, critically important.
    Mr. Clay. Okay.
    Governor Snyder. Going on, water bill credit relief because 
they shouldn't have to pay for that water during that time 
period that they were using.
    Mr. Clay. Okay.
    Governor Snyder. And then a significant reserve fund 
because, as we go through this, we're going to find new needs, 
and we need to be ready to act.
    Mr. Clay. All right. And then that includes the adults, 
too? They probably need special attention also.
    Governor Snyder. Particularly people with suppressed immune 
systems, foster care situations, or elderly. Again, one of the 
things we took immediate action on that is mind-boggling about 
this whole process that I never understood is there is no 
requirement to test the school.
    So not only have we gone into the schools to test them, we 
found they didn't have lead service lines going into them, but 
they had problems with fixtures. So we simply said enough of 
the testing. Let's just start replacing fixtures in schools to 
address this issue.
    Mr. Clay. I see. Thank you for your response.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    And I will recognize the ranking member.
    Mr. Cummings. Thank you very much, and I want to thank our 
witnesses for being with us and staying through all of this.
    Governor Snyder, based on the record before the committee, 
many of your top advisers and key State officials knew there 
was a problem with Flint's drinking water, but you say you were 
not aware. Now I would like to run through what these people 
knew.
    First, let me ask you about one of your top legal advisers 
in your office, Michael Gadola. He wrote an email on October 
14, 2014, stating, and I quote, ``The notion that I would be 
getting my drinking water from the Flint River is downright 
scary. Too bad the emergency manager didn't ask me what I 
thought, but I am sure he heard it from plenty of others. My 
mom is a city resident. Nice to know she is drinking water with 
elevated chlorine levels and fecal coliform. They should try to 
get back on the Detroit system as a stopgap as soon as possible 
before this thing gets too far out of control.''
    That was written in America by one of your top legal 
advisers. Would you--would you consider him a top legal 
adviser?
    Governor Snyder. Yes.
    Mr. Cummings. Okay. Do you take your legal advisers' 
advice?
    Governor Snyder. On legal matters.
    Mr. Cummings. Yes, all right. Do you remember hearing any 
of this, getting this?
    Governor Snyder. I don't recall discussing it with him, and 
I don't believe I was on that email.
    Mr. Cummings. Okay. You didn't receive this email in 2014, 
and so did you know that your top legal adviser even raised 
these kind of concerns?
    Governor Snyder. I don't recall. I recall we were concerned 
about water in Flint, though. Again, the issue was not a lead 
issue at that time. There was issues with E. coli and the odor 
and color of the water.
    Mr. Cummings. You know, Governor, I keep hearing that, 
hearing you say things like that. But I swear to God, if 
somebody gave me water that looked like urine and had a smell 
to it, I am sorry, you know, maybe--maybe your standards are 
different. I wouldn't want my family drinking it, and I 
wouldn't want to be drinking it.
    And my standard is I want for my constituents what I want 
for my own, my own family. And, but let us go on.
    Let me turn to your top officials at the MDEQ. On April 17, 
2014, about a week before they switched to the Flint River, the 
water quality supervisor at the Flint plant sent an email to 
three top MDEQ officials, Adam Rosenthal, Mike Prysby, and 
Stephen Busch.
    Now let me tell you what he wrote, and I quote, ``If water 
is distributed from this plant in the next couple of weeks, it 
will be against my direction. I need time to adequately train 
additional staff and to update our monitoring plans before I 
will feel we are ready. I will reiterate this to management 
above me, but they seem to have their own agenda.''
    Did you know that the water quality supervisor warned your 
top officials at MDEQ not to go forward one week earlier?
    Governor Snyder. To my knowledge, I had no awareness of 
that email.
    Mr. Cummings. That is not what I asked you. I said were you 
aware that they had the concerns?
    Governor Snyder. No.
    Mr. Cummings. Okay.
    Governor Snyder. I don't recall any.
    Mr. Cummings. All right. Let me turn to the Director of 
Urban Initiatives in your office, Harvey Hollins. In mid March 
2015, Mr. Hollins received an email warning him that there had 
been a ``significant uptick'' in the number of reported 
Legionnaire's disease cases. Were you aware of that last March? 
Were you aware of that?
    Governor Snyder. Not to my knowledge.
    Mr. Cummings. Okay. Let me turn to your former chief of 
staff, Mr. Muchmore. Now I want to make sure, you know, 
somebody--I think I don't know whether it was Mrs. Lawrence, 
somebody was asking you about the structure of the way things 
are situated in your office.
    But in congressional offices, for the most part, your chief 
of staff answers to no one but the congressman. Now is there 
anybody in between you and the chief of staff?
    Governor Snyder. No.
    Mr. Cummings. All right. So the chief of staff would answer 
directly to you?
    Governor Snyder. Yes.
    Mr. Cummings. All right. And if it is logical that if the 
chief of staff has some concerns and was saying we ought to do 
certain things, doesn't it seem logical that that would come to 
you?
    Governor Snyder. I don't recall specific conversations. We 
had discussions about water quality in Flint, and we were 
working a number of issues. You mentioned Harvey Hollins, I was 
working with the chief of staff and Harvey Hollins to get a 
donation of filters to deal with the odor and color issues for 
a pastor's group in Flint.
    Mr. Cummings. Well, in July, Mr. Muchmore, your chief of 
staff, he sent an email warning that residents ``are concerned, 
and rightfully so, about the lead level studies they are 
receiving'' and that they--``they are basically getting blown 
off by us.''
    You were not on that email either, were you?
    Governor Snyder. No. I don't believe so.
    Mr. Cummings. Did--so he didn't forward it to you?
    Governor Snyder. I don't recall ever receiving it.
    Mr. Cummings. Does it alarm you that he is saying that they 
were blown off? In other words, your constituents, the ones 
that you asked to vote for you, the ones that you are 
supposedly about the business of improving their lives, were 
saying that they were being blown off. Does that bother you?
    I mean, when you look back at it? I am not saying you knew 
about it, I am just asking you would it bother you?
    Governor Snyder. In terms of looking at the record, as I 
recall, he went out to both DEQ and DHHS and asked the experts 
the question in terms of the water being safe or not, and they 
told him it was. And that was wrong in retrospect.
    Mr. Cummings. Now, okay, it looks like almost everyone knew 
about these problems except you. You were completely missing in 
action. That is not leadership, do you think, Mr. Governor?
    Governor Snyder. I was not missing in action, Congressman. 
I had ongoing discussions about a number of water issues in 
Flint. I received several briefings on it, had a number of 
discussions. And the continuing response from the experts, 
whether to Dennis Muchmore or other people, when you look at 
the record is they would tell you it was safe.
    Mr. Cummings. Now you can understand why the residents of 
Flint would be skeptical about what you are saying, right? I 
mean, they are not like us. I mean, they just know somebody--
they say, chief of staff, that sounds like somebody very 
important, sounds like somebody that would answer directly to 
the Governor.
    I mean, you can kind of understand that concern, couldn't 
you?
    Governor Snyder. I absolutely do, sir, and I'm going to 
have to live with this my entire life.
    Mr. Cummings. On your Web site--but Governor, you know 
what? You know, I have heard you say that, but I got to tell 
you. There are children that got to live with it, the damage 
that has been done for the rest of their lives. And it is 
painfully painful to think that a child could be damaged until 
the day they die and that their destiny has been cut off and 
messed up.
    So, yes, you have to live with it, but they, many of these 
children, will never be what God intended them to be when they 
were born and conceived.
    I just have a few more questions. On your Web site, you say 
to the people of Michigan, ``We will learn from this 
experience.'' But an entire generation has been poisoned.
    Governor, what are those children supposed to learn from 
your utter lack of--let us say from this incident, what are 
they supposed to learn?
    Governor Snyder. One of the terrible parts of all this is 
there is a huge issue, in addition to all their medical issues 
and educational issues, as you mentioned, sir. But there is a 
question of trust in government.
    Mr. Cummings. Yes.
    Governor Snyder. And there is good reason for them to ask 
that question. And that is going to take a huge amount of time 
to earn back, if it can be earned back, and it involves getting 
third-party experts, such as Professor Edwards and Dr. Mona to 
be part of the process so people can have confidence and people 
they trust that were the heroes that helped bring this issue 
up.
    Mr. Cummings. Governor Snyder, I would like to talk to you 
about your priorities for a minute. In your administration, you 
have shown over and over again that money is a high priority. 
Despite the fact that Michigan had a budget surplus, you did 
not even bother asking the legislature to provide the money 
necessary to move Flint back to the Detroit water. The truth, 
Governor Snyder, is that Flint was not--did not seem to be a 
priority because on January 24, 2015, you sent an email to your 
staff with a list of priorities for 2015.
    Most of the document is redacted, but we can see that 
number 36 on the list, number 36 on the list was the Flint 
water system. So, Governor, Flint water was not your first 
priority. It was not in the top 10, wasn't even in the top 20, 
not even in the top 30. Flint was number 36.
    Shouldn't the children and the residents of Flint have been 
higher on your priority list, Mr. Governor?
    Governor Snyder. In retrospect, with it becoming a true 
safety issue with the lead issue, it should have been higher. 
That was not the issue at the time.
    Mr. Cummings. Now, Mr. Governor, we also know what you do 
prioritize. When things got rough for you and your 
administration started being investigated by law enforcement, 
you got the people of Michigan to pay your legal fees. 
Governor, do you admit here today that you have asked the 
people of Michigan for more than $1 million to pay for your 
criminal and civil defense fees?
    Governor Snyder. Yes.
    Mr. Cummings. And it makes me sick to think you found a way 
to have the State of Michigan pay over $1 million in legal 
fees, yet you thought so little of the people in Flint that you 
could not be bothered to ask the legitimate--the legislature 
for money to switch them over to clean water. You cannot be 
trusted, and I got to tell you, you need to resign.
    [Applause.]
    Mr. Cummings. Mr. Governor, I know we are at the end of the 
hearing. I want to--and we are at the end, right? Are we?
    I just want to thank both of you for being here. And we 
have got to do better than this. We all deserve better. And I 
told the chairman from the very beginning, no matter who is 
responsible, we wanted to address this issue.
    And one of the things, Mr. Governor, 15 of your people, you 
talk about transparency, but 15 of your people refused to talk 
to us, refused. So I hope that you will urge them. I saw, read 
something yesterday where you said you urged them to talk. We 
need to hear from them. All right?
    Thank you, sir.
    Chairman Chaffetz. I thank the gentleman.
    I want to thank all those that have participated in the 
three sets of hearings that we have had. There is no doubt, 
after having gone through this, that there were a lot of 
mistakes is just a total understatement. I want to thank those 
who have stepped up to be part of the solution, have recognized 
where wrong has been done because they really do need to take 
care of these children and take care of the people of the City 
of Flint.
    And I know that is where everybody's heart is. Our daughter 
is getting married soon and moving to Michigan. So it--it is 
important, and it reaches real people's lives.
    We get pretty heated. We get pretty animated. We get 
pretty--you know, we want accountability. But if you don't step 
up and understand the problem, if you don't step up and 
understand where the mistakes were made, if you don't take some 
accountability, then you don't solve it going forward.
    That is my problem with the approach that the Administrator 
has taken. With all due respect, I know you love this country. 
I know you are working hard. I know you take a lot--a lot for 
it. But I also believe in my heart that it is just offensive to 
suggest that there was nothing wrong done, and to not 
apologize, it is just wrong.
    So that is just my own personal opinion. We have all got 
our own personal opinions. I appreciate working with Mr. 
Cummings. We will continue to work together.
    Yes, go ahead.
    Mr. Cummings. Yes, Mr. Chairman, again, I want to be clear. 
I thank you, I really do, for holding these hearings. Because I 
can tell you, a lot of chairmen would have never done it, and I 
really appreciate it. And on behalf of all of us, you have set 
a shining example of what leadership is all about.
    Thank you.
    Chairman Chaffetz. Well, thank you. Very kind to me.
    I also want to thank Congressman Kildee. This is his 
district. He pours his heart and soul into this, and he cares 
deeply, and we thank him, too, as well.
    [Applause.]
    Chairman Chaffetz. I think that is appropriate, and with 
that, the committee stands adjourned.
    [Whereupon, at 12:53 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               


                                 <all>
</pre></body></html>
